<html>
<title> - [H.A.S.C. No. 114-128] MILITARY CYBER OPERATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 114-128]

                      
                       MILITARY CYBER OPERATIONS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 22, 2016


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                              _____________
                              
                              
                   U.S. GOVERNMENT PUBLISHING OFFICE                   
 20-795                   WASHINGTON : 2017                  
________________________________________________________________________________________             
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8bfa8b798bbadabacb0bdb4a8f6bbb7b5f6">[email&#160;protected]</a>  




                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Kevin Gates, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Atkin, Thomas, Acting Assistant Secretary of Defense for Homeland 
  Defense and Global Security, Office of the Secretary of Defense     3
McLaughlin, Lt Gen James K. ``Kevin,'' USAF, Deputy Commander, 
  U.S. Cyber Command.............................................     4
Moore, Brig Gen Charles L., Jr., USAF, Deputy Director, Global 
  Operations (J-9), Joint Staff..................................     6

                                APPENDIX

Prepared Statements:

    Atkin, Thomas, joint with Lt Gen James K. ``Kevin'' 
      McLaughlin and Brig Gen Charles L. Moore, Jr...............    39

Documents Submitted for the Record:

    [There were no Questions submitted during the hearing.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Ashford..................................................    57
    Mr. Rogers...................................................    57
    Mr. Thornberry...............................................    57

Questions Submitted by Members Post Hearing:

    Mr. Aguilar..................................................    64
    Mr. Lamborn..................................................    63
    Mr. O'Rourke.................................................    64
    Mr. Rogers...................................................    61
    
.      
                       MILITARY CYBER OPERATIONS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, June 22, 2016.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    I would like to welcome our witnesses today as the 
committee examines military cyber operations.
    I note that just about exactly 2 months ago President Obama 
confirmed for the first time that the U.S. is conducting cyber 
operations against ISIS [Islamic State of Iraq and Syria]. And 
as the leadership of the Department of Defense [DOD] was 
discussing this, they said it was the first time that Cyber 
Command has been given the guidance to go after ISIS. Just like 
we have an air campaign, we want to have a cyber campaign.
    And some of the press went on to discuss that Secretary 
Carter was pushing for U.S. Cyber Command [CYBERCOM] to have 
greater freedom to launch attacks and to address tactical cyber 
threats against ISIS.
    I know this committee remains committed to ensuring that 
the Department of Defense's capabilities to fight and win the 
country's wars and to be prepared and ready to execute those 
missions remain on solid footing regardless of which domain we 
are talking about, including the cyber domain.
    The Department has been developing the organizations, 
capabilities, and personnel needed to operate in cyber since at 
least 2010. Billions of dollars have been spent. And yet the 
perception--and you all can disagree with this if you think I 
am wrong--the perception is the threat is still multiplying 
faster and growing faster than at least our laws and 
regulations, policies, rules of engagement are developing.
    Still, a fundamental question: What is the role of the 
military to protect civilian infrastructure in the United 
States against cyber attack? I do not suggest we are going to 
get the definitive answer to all of those questions today, but 
I think that it is important that we discuss not only those but 
the tactical use of cyber, which the President talked about and 
which the leadership of the Department has talked about. It is 
a significant change just in the past few months.
    So we will look forward to hearing from our witnesses about 
those and other topics, but, first, I would yield to the 
distinguished ranking member for any comments he would like to 
make.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. And I agree with your 
comments about both the complexity and the importance of cyber. 
And I think the most interesting thing I would like to get out 
of this hearing is how is the organization coming together, 
because I think that is the major challenge.
    It has been quite a few years now since we have recognized 
the importance of cyber, and different aspects of our national 
security apparatus, in addition to the additional different 
aspects of the Department of Defense, have attempted to address 
that problem. So we have a lot of people working on it. How 
coordinated are they?
    I think that is the great challenge, is making sure that we 
are getting the most out of the resources that we are putting 
into this. Because it is a constantly evolving threat, and it 
threatens everything, every aspect. You know, the least little 
device can be an entry point to a cyber attack. So how do you 
get a comprehensive look at making sure that you control--or 
``control'' is a bit of an optimistic statement--have some 
measure of understanding of where the threats are and how best 
to address them?
    So how the various branches of the military and our broader 
cyber vulnerabilities--as the chairman mentioned, a lot of 
those vulnerabilities exist in the private sector. On the 
defense committee, we have had defense contractors who have 
been hacked before that have created problems. So how do we 
comprehensively address this incredibly complex and ever-
evolving problem? I think that is the great challenge.
    And I will say that I very much approved of what Secretary 
Carter did, where he had the, you know--I forget what he called 
it, but where he basically invited hackers to try to find their 
way in and, you know, learned from that. I think that was one 
of the best, most cost-effective ways to do it, instead of, you 
know, doing some contract out to some company and going through 
a complex process. Just take those people out there who are 
really good at this and say, ``Come at us. Show us our 
vulnerabilities.'' I thought that was a very wise way to learn 
a lot in a cost-effective manner.
    But, again, the real challenge is having a comprehensive 
approach to such an ever-evolving and challenging problem, and 
then, as the chairman mentioned, the legalities of it, in terms 
of, you know, are our laws and regulations keeping up with it, 
to make sure that you and the executive branch have the 
authorities that you need to best protect us and, in some 
cases, use cyber as an offensive weapon where necessary, that 
those legal questions are also very complicated and ones that 
we would like to be helpful with if we can.
    With that, I will yield back and look forward to the 
testimony.
    The Chairman. I thank the gentleman.
    I also want to mention that, of course, on the front lines 
for oversight of this issue, I very much appreciate the 
Emerging Threats and Capabilities Subcommittee Chairman Wilson, 
Ranking Member Langevin, who work in this area day to day. I 
think it is also important, though, for all members to look at 
these larger cyber issues, which is why we are doing this 
hearing with the full committee today.
    Let me welcome our witnesses: Mr. Thomas Atkin, Acting 
Assistant Secretary of Defense for Homeland Defense and Global 
Security; Lieutenant General Kevin McLaughlin, Deputy 
Commander, U.S. Cyber Command; and Brigadier General Charles 
Moore, Deputy Director of Global Operations with the Joint 
Staff.
    Without objection, any written material you would like to 
submit will be included in the record.
    Thank you all again for being here.
    Mr. Atkin, the floor is yours.

   STATEMENT OF THOMAS ATKIN, ACTING ASSISTANT SECRETARY OF 
DEFENSE FOR HOMELAND DEFENSE AND GLOBAL SECURITY, OFFICE OF THE 
                      SECRETARY OF DEFENSE

    Mr. Atkin. Thank you, Chairman Thornberry, Ranking Member 
Smith, and members of the committee. I am pleased to testify 
today, along with my colleagues Lieutenant General Kevin 
McLaughlin and Brigadier General ``Tuna'' Moore, on the 
Department's efforts in cyberspace and how we are improving 
America's cybersecurity posture. It is an honor to represent 
the Department, and I am proud of the progress we have made in 
this challenging domain.
    The closed hearing this afternoon will go into greater 
detail on some of the challenges that we face in cyberspace and 
the Department's efforts to address those challenges, but I 
wanted to highlight just a few things here this morning.
    First, the threat. Today, we face a diverse and persistent 
threat in cyberspace from state and non-state actors that 
cannot be defeated through the efforts of any single 
organization. Our increasingly wired and interconnected world 
has brought prosperity and economic gain to the United States. 
However, our dependence on these systems also leaves us 
vulnerable, and the cyber threats are increasing and evolving, 
posing greater risk to the network and systems of the 
Department of Defense and other departments and agencies, our 
national critical infrastructure, and other U.S. companies and 
interests.
    While DOD maintains and uses robust and unique cyber 
capabilities to defend our networks and the Nation, that alone 
is not sufficient. Securing our systems and networks is 
everyone's responsibility, from the commander down to the 
individual, and this requires a culture of cybersecurity.
    More broadly, preventing cyber attacks of significant 
consequence against the U.S. homeland requires a whole-of-
government and a whole-of-nation approach. To that end, DOD 
works in close collaboration with other Federal departments, 
our allies, and the private sector to improve our Nation's 
cybersecurity posture and to ensure that DOD has the ability to 
operate in any environment at any time.
    Since DOD's cyber strategy was signed in April 2015 by 
Secretary Carter, the Department has devoted considerable 
resources to implementing the goals and objectives outlined 
within the document.
    When the Secretary signed the document, he directed the 
Department to focus its efforts on three primary missions in 
cyberspace: one, defend the Department of Defense information 
networks to assure our DOD missions; two, defend the United 
States against cyber attacks of significant consequence; and, 
three, provide full-spectrum cyber options to support 
contingency plans and military operations.
    Another key part of our strategy is deterrence. DOD is 
supporting a comprehensive, whole-of-government cyber 
deterrence strategy to deter attacks on the U.S. and our 
interests. This strategy depends on the totality of U.S. 
actions, to include declaratory policy, overall defensive 
posture, effective response procedures, indications and warning 
capabilities, and the resiliency of U.S. networks and systems.
    I am proud to say that the Department has made important 
strides in implementing DOD's cyber strategy since it was 
signed in April 2015. My colleagues and I look forward to going 
into greater detail on our strategy and the state of the Cyber 
Mission Forces as the hearing proceeds, as well as to discuss 
how our thinking and incorporation of cyber and operations is 
evolving.
    The Department is committed to the security and resiliency 
of our networks and to defending the U.S. homeland and U.S. 
interests from attacks of significant consequence that may 
occur in cyberspace. I look forward to working with this 
committee and the Congress to ensure that the Department has 
the necessary capabilities to keep our country safe and our 
forces strong.
    I thank you for your support in these efforts, and I look 
forward to your questions. Thank you.
    [The joint prepared statement of Mr. Atkin, General 
McLaughlin, and General Moore can be found in the Appendix on 
page 39.]
    The Chairman. General McLaughlin.

STATEMENT OF LT GEN JAMES K. ``KEVIN'' McLAUGHLIN, USAF, DEPUTY 
                 COMMANDER, U.S. CYBER COMMAND

    General McLaughlin. Chairman Thornberry, Ranking Member 
Smith, and distinguished members of the committee, I am honored 
to appear before you today representing the men and women of 
U.S. Cyber Command. It is my pleasure to do so alongside 
Assistant Secretary Thomas Atkin and Brigadier General Charles 
Moore, two gentlemen who keenly recognize the opportunities and 
challenges the Department faces in the cyber domain.
    I would like to focus my opening remarks on U.S. Cyber 
Command's ongoing efforts to build capability and capacity in 
the cyber mission force. The cyber mission force [CMF], with 
unique teams designed to defend DOD information networks, 
support combatant commander missions, or defend the Nation's 
critical infrastructure, gives U.S. Cyber Command and the 
Department a means to apply military capability at scale in 
cyberspace.
    We recognize that success in accomplishing our assigned 
missions is dependent on three factors: the quality of our 
people, the effectiveness of their capabilities, and the 
proficiency that our people bring to bear in employing these 
capabilities.
    U.S. Cyber Command's manpower reflects a true total force 
effort, encompassing a robust Active Component along with both 
National Guard and Reserve forces being fully integrated at all 
echelons, from the highest levels at our headquarters down to 
our tactical forces that are represented in the cyber mission 
force.
    As of June 10th of this year, out of a target total of 133 
teams that will be part of the cyber mission force, we have 46 
teams that are at fully operational capable status and 59 that 
are at initial operating capability status. These teams 
currently comprise 4,684 total people that we will build to 
eventually 6,187 when we finish.
    It is important to note that even teams that are not fully 
operational are already contributing to our cyberspace efforts 
as the command operates on a full-time and global basis. The 
Nation and every combatant commander can now call on cyber 
mission force teams to bring cyberspace effects in support of 
their operations. Such work occurs daily, for instance, in the 
fight against ISIL [Islamic State of Iraq and the Levant], 
where our teams are conducting cyberspace operations in support 
of U.S. Central Command's ongoing efforts to degrade, 
dismantle, and ultimately defeat ISIL.
    Training the force to be prepared for its varied missions 
is imperative. U.S. Cyber Command's annual Cyber Guard 
exercise, which concluded last Friday, provides realistic 
training in which Federal, State, industry, and international 
partners can use their skills against a determined opposition 
force.
    The response to Cyber Guard from our public and private 
partners has been tremendous. Dozens of critical-infrastructure 
companies have expressed interest in participating in it. 
Exercises like Cyber Guard allow senior policymakers to observe 
the types of issues we see in real cyber attacks and helps us 
generate a playbook that should save the Federal Government 
precious time and stress in responding.
    In this year's exercise, U.S. Cyber Command expects to 
certify teams, ensuring they have the requisite training and 
skills to make an immediate impact in today's fight.
    Our command prides itself in being a learning organization. 
Exercises like Cyber Guard and our other premier exercise, 
Cyber Flag, which is ongoing at this moment, are key lessons-
learned opportunities for us. We also look at everything that 
we are learning in the growing set of real-world operations and 
collaboration from the private sector, academia, and partner 
nations to provide valuable insights to the command and allow 
our teams to develop and implement new tactics, techniques, and 
procedures.
    Although our people are undoubtedly our most important 
asset, I would be remiss not to highlight the importance of 
specialized tools, infrastructure, and capabilities that the 
cyber mission force needs to execute its missions. Ongoing 
efforts to develop tools, such as the persistent training 
environment [PTE], the unified platform, cyber situational 
awareness, and the Joint Information Environment, must be 
continued to be resourced. These capabilities are critical in 
ensuring our cyber warriors are equipped to counter 
sophisticated and dynamic adversaries.
    The accelerated pace of technology, innovation, and our 
adversaries' changing tactics in cyberspace require well-
trained, well-resourced, and an agile force to perform all 
three of the critical missions we perform in support of the 
Department and the Nation.
    With that, thank you again, Mr. Chairman and members of the 
committee, for inviting me to appear before you today. I assure 
you that U.S. Cyber Command is committed to the mission of 
ensuring the Department of Defense mission assurance, deterring 
or defeating strategic threats to our interests and 
infrastructure, and achieving joint force commander objectives. 
The growing capabilities and capacity of the cyber mission 
force is adding to our ability to perform this mission.
    The U.S. Cyber Command team appreciates the support of this 
committee that it has shown and looks forward to our continuing 
partnership with Congress to address the challenges and 
opportunities in cyberspace. And I am happy to take your 
questions.
    Thank you.
    [The joint prepared statement of General McLaughlin, Mr. 
Atkin, and General Moore can be found in the Appendix on page 
39.]
    The Chairman. Thank you.
    General Moore.

   STATEMENT OF BRIG GEN CHARLES L. MOORE, JR., USAF, DEPUTY 
         DIRECTOR, GLOBAL OPERATIONS (J-9), JOINT STAFF

    General Moore. Thank you, Chairman Thornberry, Ranking 
Member Smith, and members of the committee. Thank you for the 
opportunity to speak on behalf of the Joint Staff in regards to 
the Department of Defense's efforts in the cyber domain.
    As all of you are aware, the inherent global nature of 
cyberspace operations and cyberspace threats causes and creates 
numerous challenges for the Department of Defense. 
Additionally, our warfighting capabilities are increasingly 
reliant on the cyber domain, and it is integral to the 
advantages we enjoy in everything from our high-tech weapons 
and communications systems to our ability to rapidly deploy 
forces around the globe.
    Furthermore, trying to keep up with the rate at which 
technology is advancing in this rapidly changing environment is 
extremely challenging. It is important to note that, while our 
adversaries and potential adversaries continue to increase 
their capabilities, they also share these challenges.
    All of that said, the Department of Defense is making 
significant progress, including the continued build of our 
cyber mission force, challenging our adversaries' ability to 
operate freely in cyberspace, and continuing to improve more 
effectively our ability to defend our networks, information, 
weapons systems from malicious cyberspace actors.
    In regards to building our cyber capabilities, U.S. 
STRATCOM [Strategic Command] and U.S. CYBERCOM continue to make 
great strides in standing up our cyber mission forces. These 
forces are arranged in teams with the objectives to support 
combatant command requirements, to defend the Nation against 
cyber attack, and to protect our Department of Defense 
information networks, information, and weapons systems.
    While significant progress in all these areas has been made 
in the last year, significant challenges do remain, to include 
equipping the force; establishing a persistent training 
environment that is responsive to the many layers of required 
training; recruiting and retaining a professional cyber force; 
and finalizing the command and control structure for the cyber 
mission force.
    From an operational perspective, CYBERCOM continues to make 
great progress as we continue to see significant results from 
our counter-ISIL strategy. In this area, CYBERCOM has not only 
challenged ISIL, as the President and the Secretary of Defense 
have publicly stated, but they have also built on our lessons 
learned to date, establishing a solid foundation upon which to 
expand the scale and effectiveness of our operations.
    From a broader strategic view, our adversaries, who are 
always looking for something that can provide them an 
asymmetric advantage, find cyberspace appealing due to the low 
barriers to entry and the perceived difficulty of attribution. 
Because of these threats from both state and non-state actors, 
we work vigorously to harden our networks and weapons systems 
while educating the total force to create a climate of constant 
vigilance.
    To strengthen the whole-of-government effort to protect 
U.S. interests, particularly U.S. critical infrastructure, the 
Department of Defense routinely engages and works with our 
interagency partners. The Department also regularly engages 
with our international partners, and there is tremendous 
interest to expand those cyber relationships.
    Finally, as our capabilities continue to grow, we 
continually engage all of the combatant commands to ensure 
cyber-enabled effects are being considered for incorporation 
into their planning processes and to benefit all current and 
future operations.
    While it is well known that we are actively engaged in 
cyberspace against ISIL, we also recognize that there are other 
threats in cyberspace that must be planned for and addressed. 
The Joint Staff is working closely with U.S. CYBERCOM to 
continue to bring cyber-related options to the table for 
consideration to support all of our global operations.
    As I mentioned, the cyber domain is constantly changing, 
and we see malicious cyber actors rapidly developing new 
capabilities at a very high rate. The Joint Staff continues to 
work closely with CYBERCOM, the combatant commands, OSD [Office 
of the Secretary of Defense], and our interagency and 
international partners to secure our networks, our information, 
weapons systems, and to support combatant command objectives 
while we defend the Nation against malicious cyberspace 
activities.
    Thank you again for the opportunity to appear today. I look 
forward to answering any questions that you might have.
    [The joint prepared statement of General Moore, Mr. Atkin, 
and General McLaughlin can be found in the Appendix on page 
39.]
    The Chairman. Thank you.
    Let me just take a second and remind members that we will 
have our quarterly cyber update this afternoon at two o'clock 
in this room. It will be classified, of course, but we will be 
able to get into greater detail on classified matters at that 
time.
    Mr. Atkin, the Cyber Command achieved full operational 
capability in October 2010. So we are nearly 6 years down the 
road. Isn't it time for CYBERCOM to stand on its own as a 
combatant command?
    Mr. Atkin. I think the short answer to that is yes. We are 
continuing to look at that within the Department. The Secretary 
has been evaluating whether to recommend to the President to 
stand up CYBERCOM as its own unified command. So we are 
continuing to look at it, but I think we are getting close to a 
decision and we will be getting something to the President here 
in the near future.
    The Chairman. Well, we are trying to help you along because 
section 911 of the defense authorization bill requires that 
that be done. And I note that Admiral Rogers has testified that 
becoming a combatant command would allow CYBERCOM to be faster, 
which would generate better mission outcomes.
    I have yet to hear a reason not to do it. And so it seems 
to me that we shouldn't stew around about this too long, 
because the goal is better outcomes. And if that is what the 
result is, we ought to be able to agree and get that done 
without a lot of delay.
    General McLaughlin, let me ask you, we talked about the 
tactical use of cyber that has been publicly talked about by 
the President, the Secretary, Deputy Secretary. We obviously 
cannot get into the details of that in this forum, but what 
would you say are kind of the broader challenges that have been 
encountered so far? General Moore mentioned lessons learned. 
Kind of at an upper policy level, what have we learned so far 
with what we have been doing against ISIS?
    General McLaughlin. So I think what we have learned is, as 
we describe to you the cyber mission force that is being built 
right now, we have learned that the fundamental building blocks 
of the forces that are actually supporting combatant commands--
as we stated in our mission, one major focus is bringing cyber 
effects to support our combatant commanders. And the war on 
ISIL is the first at-scale opportunity to do that in support of 
the U.S. Central Command [CENTCOM].
    So the first thing that we have learned is to reinforce 
that the way we are creating our teams, the expertise within 
those teams and how they plug into our command and control 
processes, including to the supported command, is working.
    The broader challenges we have is this team is still a 
young force. As we mentioned, you know, we have quite a few of 
them that are at initial operating capability, and so, in many 
cases, this is the first actual live opportunity for these 
forces to conduct that type of mission. And so the types of 
lessons we have learned have been a number of just practical 
lessons about improving the ability for us to do that routinely 
at scale.
    The reason the persistent training environment is so 
important is to give teams like those that are supporting the 
war on ISIL, you know, more realistic opportunities to do their 
work and train in realistic environments prior to actually 
doing it in combat. So we sort of knew that intuitively, and 
the actual operations have borne out how important that 
capability would be.
    We have learned how quickly that the Department in general 
needs to operate from in terms of if there are any policy or 
anything that needs to be done to support sharing, for example, 
with partners. And that has happened routinely. So the OSD 
staff, for example, sits in our twice-a-week update, you know, 
that we do in this area specifically to want to know is there 
anything at all that is needed in order to make these 
operations more effective. We have learned how important that 
broader team is. Some people might not realize how closely 
coupled that we are from that perspective.
    I think, really, the last is maturity, you know, continuing 
to do this. We have learned more in the last several months 
since it has been announced publicly that we are supporting 
this. It has given us the opportunity to learn and mature, kind 
of plow back in the lessons learned in a real circumstance that 
it might have taken us several years to learn some of the 
things that we are learning, but it is the nature of military 
operations.
    And, in summary, I would just say I think we believe that 
we are on course, the fundamental tenets of what we are doing 
are sound, and, you know, our job is to continue to expand 
capability and capacity against this enemy. And we will talk 
with you about it and give you some practical examples of that 
in the closed session later this afternoon.
    The Chairman. General Moore, do you have anything to add on 
lessons learned or what you see from a Joint Staff perspective?
    General Moore. No, sir. I think most of those that I would 
add to were touched on by General McLaughlin. I would piggyback 
on and say the speed of operations and how we can increase the 
speed of those operations, especially at the operational and 
tactical level, is something we are very much focused on and is 
going to be critical to continue to support overall combat 
operations.
    We have also applied the lessons, though, that we have 
learned from attacks on our own infrastructure and how to 
better protect ourselves and how better to train our people to 
defend against that.
    The Chairman. Okay.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Just following up on the raising it to a combatant command 
level, which we would like to see happen, what are the 
challenges, what are the steps that you see necessary, Mr. 
Atkin, to get to that point where you are ready to make that 
move?
    Mr. Atkin. I think, sir, our biggest challenges are going 
to be resources, making sure that CYBERCOM has all the right 
resources as they build out the cyber mission force, as we 
continue to build out the PTE that General McLaughlin has 
already mentioned, the unified platform, et cetera, to make 
sure that they can stand alone and operate as a title 10 
military force in support of the combatant commanders. I think 
that is going to be the key.
    Not that we can't do it; it is just a matter of making sure 
that we are doing it in a sequenced way to make sure that we 
don't hamper or hurt any operations that we have ongoing and 
that we continue to gain advantages and do better when we are 
conducting these operations.
    So I don't think there is any one specific thing that is 
stopping us. It is more about how we make sure it is sequenced 
to get to the right mission.
    Mr. Smith. And what are the coordination challenges there? 
Now, there is obviously--we have already coordinated them into 
a central cyber structure. It just hasn't been given a 
combatant command status.
    As you look throughout DOD, obviously there are a lot of 
people working on cyber. How do you sort of round all of that 
up and get it under one unified combatant command? What are the 
challenges going to be into pulling in those pieces and working 
with them?
    Mr. Atkin. Well, I think part of the challenge is going to 
be how we just work internally within the Department. I think 
we have a good way ahead under the Principal Cyber Adviser, 
which I am, as well as my role as the Acting Assistant 
Secretary for Policy. So we work it from both those angles 
within the Department internally. Under the Joint Staff and as 
a combatant commander, they work very closely with the other 
combatant commands to make sure that all the operations are 
integrated and coordinated.
    And then we in policy also work across the interagency and 
across the intelligence community to make sure the operations 
are coordinated and the sequence of activities, whether it is 
the application resources or training or other operations, are 
coordinated.
    Mr. Smith. What, if any, role does the NSC [National 
Security Council] play in your cyber operations? This is a 
subject that has come up in our hearings, you know, the 
increasing role of the NSC, over the top of, in some cases, the 
Department of Defense. Are they involved in that? If they are 
involved, how well do you coordinate and balance what the NSC 
might be doing on cyber versus what DOD is doing on cyber?
    Mr. Atkin. Well, the NSC is obviously an integral part of 
the whole-of-government solution and the whole-of-nation 
solution for any of our activities. And so we keep them advised 
of the operations that we have ongoing through the interagency 
process. And we also, when necessary, we coordinate and get the 
President's permission to conduct operations when his 
permission is required.
    Mr. Smith. Okay.
    Thank you, Mr. Chairman.
    The Chairman. Yeah, we may want to pursue that a little 
further.
    Chairman Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Mr. Chairman, for citing the Emerging 
Threats and Capabilities Subcommittee. I am very grateful to be 
chairman of the committee, with extraordinary staff that have 
worked with everyone here: Pete Villano, Kevin Gates, Katie 
Sutton, Neve Schadler, and Lindsay Kavanaugh.
    And it has also been a remarkable exercise of 
bipartisanship working with Jim Langevin. And I am particularly 
grateful, there are subcommittee members here who have been so 
important. And Elise Stefanik has just been a superstar, coming 
to every meeting. And I am just so grateful for our other 
members who are here: Doug Lamborn, Sheriff Rich Nugent, Mo 
Brooks, Vice Chairman Trent Franks, Duncan Hunter.
    But it has just been terrific to work with each of you, it 
has been so meaningful, on cyber operations, what can be done, 
but the dangers to the American people. And you are trying to 
be proactive, and we appreciate that very much.
    In fact, General McLaughlin, what are we doing to make 
better use of coalition forces and capabilities in the planning 
and execution of our cyberspace operations? How are we aligning 
our policies, doctrines, and capabilities with our NATO [North 
Atlantic Treaty Organization] allies?
    General McLaughlin. Mr. Wilson, thank you. And before I 
answer your question, we also appreciate the great support from 
the subcommittee and agree that the staff supporting that has 
been outstanding, and they are very knowledgeable and helpful 
as we work together.
    The ability to integrate our coalition partners into our 
operations at U.S. Cyber Command is critical. We have broad 
latitude and authorities that have been granted to us for that 
partnership. They are actually primarily today within our Five 
Eyes <dagger> partners. We are working and do communicate with 
NATO, but right now our focus has been our Five Eyes partners, 
as well as there are some other partners that are really 
interested in how they actually create the capacity to have 
their versions of Cyber Command and to do, you know, military 
cyber operations in countries that are still, I think, at the 
verge of trying to decide whether they are going to take the 
same steps that we have taken.
---------------------------------------------------------------------------
    <dagger> ``Five Eyes'' refers to a five-nation intelligence 
alliance involving the United States, United Kingdom, Australia, 
Canada, and New Zealand.
---------------------------------------------------------------------------
    The types of practical areas where we work today with our 
coalition partners--one, some members of the committee, 
Congressman Langevin, and the staff were just down at Cyber 
Guard down at Suffolk last week. And we have Cyber Flag 
occurring now. We have coalition partners in those sessions, 
training with our people, learning lessons, creating tactics, 
techniques, and procedures jointly, and actually practically 
identifying and overcoming any challenges that limit our 
ability to work together.
    There are key areas where we are doing development of 
capability together instead of each of us spending the same 
money to accomplish a certain task. For our close partners, 
there might be times where we will share a burden or do work 
like that together. And then, when directed and when 
authorized, if we have operations where we can actually--we 
have a partner that can bring a capability or capacity, we are 
operating with those partners, with shared objectives 
operationally, and conducting operations in a way that each of 
our, you know, national capabilities are being used to 
accomplish objectives that we share.
    So I think it is a robust environment right now. It is 
growing. I think you will see more and more countries want to 
be part of this partnership. And we will embrace them as they 
show interest and as they have the capability to partner.
    Mr. Wilson. And we have our long-term allies of NATO, but 
it is exciting, new members such as Bulgaria and Slovakia. I 
have visited different IT [information technology] centers 
there, and so, very talented people who will be very helpful.
    Additionally, General, how good is the current training 
exercise and certification process in replicating the real-
world challenges using cyber capabilities in tactical 
operations?
    Cyber Command has recently completed a Cyber Guard 16 
exercise. Are there any lessons or highlights from that 
exercise that can be applied to our ability to effectively 
apply cyber capabilities to tactical operations?
    General McLaughlin. Sir, that is also a great question. So 
I would really answer you in two ways.
    We have the ability--Cyber Guard is a great example--to do 
high-fidelity, highly realistic training, where our teams, our 
tactical forces, can be immersed in a simulated environment 
that looks real to them and have to perform their duties with 
an actual opposing force, you know, another group of people 
that are acting as if they are the enemy. And they have to 
demonstrate that they have the ability to do their job in that 
realistic environment. So we can do that, and we are doing it 
down in the Suffolk area right now.
    The issue that we have is we cannot do that at scale. And 
so we have a program we mentioned in my opening comments, the 
persistent training environment. That is a focused effort in 
the Department of Defense to allow us to actually do that type 
of training routinely, every week, every day, so that the men 
and women that are on our teams have the ability to do the 
level of training that we are doing down in Suffolk right now. 
We only do that a few times a year. So our job is to do that 
consistently, all the time, like we do in every other domain.
    Mr. Wilson. My time is up. Thank you.
    Thank you, sir.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And, first of all, Chairman, I want to thank you for your 
support and your interest in cyber, as you have continued on 
when you were chairman of the Emerging Threats and Capabilities 
Subcommittee. And I appreciate the work that you are doing now 
at the full committee level, along with the ranking member, Mr. 
Smith. And I agree with my chairman on the subcommittee now, 
Mr. Wilson, that it has been an exercise in bipartisanship, and 
deeply appreciate the work of the staff.
    Secretary Atkin, I want to thank you for your testimony 
today, along with you, General McLaughlin and General Moore. 
Thank you for what you are doing on cyber and, again, being 
here today.
    General McLaughlin and General Moore, as we have discussed 
this morning, the Cyber Guard homeland defense training 
exercise just concluded. I was very pleased to be able to 
attend that exercise. I very much enjoyed being able to witness 
the exercise take place in person. I was very impressed with 
what I saw. And I wanted to thank you all for being such great 
hosts for that exercise.
    Chairman Wilson had asked--not surprisingly, we are on the 
same page. I wanted to know what your takeaways were from the 
exercise at the highest levels. So anything else you want to 
elaborate on lessons learned from the exercise, feel free.
    But I also would like to know beyond that what lessons have 
been learned with respect to the cyber mission forces executing 
operations in a geographic combatant commander's area of 
responsibility as they pertain to each mission. And are roles 
and responsibilities of involved entities being refined and 
solidified, as well as command and control of CMF?
    General McLaughlin. Congressman, let me just take both of 
your questions.
    I think we, on the first question about high-level lessons 
learned that we have seen coming out of this year's Cyber 
Guard, while the full report will be written in the next few 
weeks, we do have some initial, you know, I think, broad 
insights that come from it.
    One is an increasing understanding of how many of the other 
partners--you know, so that, as you mentioned, that is a whole-
of-government and international exercise that simulates some 
attack of significant consequence that occurred, you know, 
outside of the DOD networks. What has really been interesting 
and our lesson is how many players both within our government, 
within industry, and within--and I mean broadly, beyond DOD, 
within our government--and our coalition partners are coming to 
this exercise.
    It continues to grow, because it is an opportunity to tease 
out not only practical, technical ways for our teams to defend 
and respond, but those complex challenges about how different 
parts of the Federal Government coordinate in response and how 
does that work; how do we work with industry, and you know 
better than most the complex issues associated with government 
forces actually connecting with industry cyber terrain and how 
we should do that most appropriately and most effectively; and 
then how we do that at scale with our partners.
    So that continues to be a key lesson for us, is the scale 
of people that want to participate. And every time we think we 
have reached the outer limits of who ought to be there, we 
realize there are more players that can or ought to come.
    And then the last thing is just to really reinforce the 
question, I think, from Mr. Wilson--that is, the need to be 
able to train at the level--the men and women that are down at 
Cyber Guard are asking us, you know, we really would like to 
have this capability routinely. This is great training. It is 
the best--most of them say it is the best they have ever had. 
And our goal is to let them do the best all the time.
    I think your question regarding what have we learned in 
terms of how--in our mission of supporting combatant 
commanders, are there broad lessons that we have learned and 
are we adapting and being innovative: When we built the cyber 
mission force and our initial command and control models, we 
just started with what we thought would work. And what has been 
very interesting and, I think, a positive step is the 
Department, often led by General Moore's team down on the Joint 
Staff, has continued to lead and ask how do we refine and 
change and adapt our command and control processes.
    And we have made a number of adjustments in the last 18 
months. We will talk this afternoon. We have made changes in 
how we command and control and focus our forces just in the 
counter-ISIL operations. So we really are learning and changing 
a lot. There is no one saying, ``That is the way we have always 
done it,'' because the way we have always done it has only been 
about, you know, 2 or 3 years. So we are changing as we need 
to.
    The one thing I think is a key just tenet that all of us 
need to understand--and we are seeing this play out in the 
support to CENTCOM--cyber capabilities aren't just there to 
solve cyber problems. There are adversaries that present 
themselves in a variety of ways that we could hold at risk. 
They might have a cyber capability that I will use some other 
tool or capability to counter, and they may have a non-cyber 
capability that we are going to use a cyber tool to counter.
    So that is one thing that I think the whole Department is 
learning, is that you don't pigeonhole cyber capabilities 
against cyber problems, is that we integrate broadly with 
CENTCOM, we integrate broadly with combatant commands, and we 
bring what is unique that we can offer to their mission, as 
opposed to defining problems only as cyber-only. And I think 
that has been a key lesson for everybody, and I think it is a 
powerful one for the Department.
    Mr. Langevin. Thank you, General. Thank you and your team 
for the work you are doing. And I was very impressed, like I 
said, with what I saw at the Cyber Guard exercise. And I agree 
that training, training, training has got to be a key part of 
us doing this going forward and seeing that persistent training 
environment be maximized and supported in a very robust way.
    So thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you all for your service to our country in various 
capacities.
    And I am going to build off of what Representative Langevin 
was just asking. This month, in a press interview, NATO 
Secretary General Jens Stoltenberg said that a major cyber 
attack could trigger a collective response by NATO, including a 
response using conventional weapons.
    Now, I know that is NATO, not the homeland. But, in this 
fast-evolving field, what can you tell us, what are you in a 
position to state publicly are the evolving rules of engagement 
where something would trigger a cyber response from us or a 
kinetic response from us?
    Mr. Atkin. Sir, as I have said before, you know, it is a 
whole-of-government response, so a cyber attack would not 
necessarily mean we have to have a cyber response back to that. 
And each of those actions would be evaluated on a case-by-case 
basis by the entire interagency and the government.
    So we would look at any cyber attack, whether it is against 
a combatant commander overseas or here in the homeland, on a 
case-by-case basis and determine what the significance of it 
was. And then we would use a whole-of-government approach, 
whether it is a diplomatic means, economic means, law 
enforcement, or military action, to respond to that.
    Mr. Lamborn. Okay.
    Anything to add to that, Generals?
    General McLaughlin. Well, sir, I will say for our mission, 
as General Moore mentioned, our job one is defending the DOD 
information network. That is ongoing 24 hours a day, 7 days a 
week.
    We have all the authorities that we need today and are 
growing the forces, so any threat that manifests itself--and, 
you know, these are short of attacks, you know, formal attacks 
or wars, but they occur all the time. And so the authorities we 
need within that domain, which is our main defensive mission 
set, we have those authorities. And we spend a great deal of 
our time day to day managing and responding to a breadth of 
those activities.
    In our closed session later today, we will give you some 
insights into the scale, just the daily size and scope of what 
that looks like, and then a specific example of an operation 
that we have conducted recently against a very specific threat 
so you can see that, you know, a little more fully.
    Mr. Lamborn. Okay. Well, thank you. That is reassuring to 
me, and I am sure it is reassuring to everyone who might be 
listening.
    And changing gears, before my time is up, in Israel they 
are doing more with collaborating with the private sector and 
consolidating everything that they are doing into one location 
for synergy.
    What do you see as the possibility or the future of 
collaborating with the private sector here in the U.S., with 
places like Silicon Valley, Seattle, et cetera, to harness the 
public-sector creativity and expertise in this area? What do 
you see as the future of that?
    Mr. Atkin. Sir, I would say, in that regard, the future is 
here. We are integrated in with the private sector, I think, 
well. And we are going to continue to grow that, whether it is 
through the Defense Innovation Unit Experimental [DIUx] out in 
Silicon Valley that Secretary Carter stood up, how we leverage 
the skills that the National Guard and Reserve forces bring 
from their private-sector jobs and we leverage those skills as 
integrating those folks into the cyber mission force, or 
continuing to work with the private sector in response to cyber 
attacks through exercises such as Cyber Guard.
    So we are already working with the private sector pretty 
well, I think. We are going to get better at that. And we are 
leveraging the skills of the National Guard and Reserve folks 
as part of the cyber mission force.
    Mr. Lamborn. But you don't see anything in the works like 
what Israel did, for instance, where there would be an actual 
consolidation into one location? That is a much smaller 
country, obviously.
    Mr. Atkin. I would say that I don't see that, no, sir. I 
think we have good coordination and collaboration through the 
Department of Homeland Security [DHS], the FBI [Federal Bureau 
of Investigation], Department of Justice, as well as the other 
sector-specific agencies--Commerce, Treasury, et cetera--with 
their sectors. But I don't see us consolidating all those 
activities into one location.
    Mr. Lamborn. Okay.
    Thank you so much, Mr. Chairman. I yield back.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Gentlemen, good morning.
    I would like to ask you about defense support to civil 
authorities, in particular, I think, the vulnerabilities and 
the concern about some type of domestic cyber attack on 
critical infrastructure that would threaten public safety.
    So I am wondering if you can talk about that but also 
specifically answer whether or not the DOD and the National 
Guard would assist in responding to that type of attack, as 
well as, you know, what actions are being taken to eliminate 
those vulnerabilities and to make it so these types of attacks 
are not possible.
    Mr. Atkin. That is a great question and a great challenge 
for our country, is how we protect our critical infrastructure.
    We work very, very closely with the Department of Homeland 
Security, who is primarily interacting with the critical 
infrastructure and have that responsibility, to not only 
provide them with information regarding threats but to help 
define how we respond as a nation to an attack on the critical 
infrastructure.
    Where DOD gets involved is an attack of significant 
consequence. We have the responsibility to defend against an 
attack of significant consequence.
    Ms. Gabbard. How do you define ``significant consequence''?
    Mr. Atkin. That would be determined by whether loss of 
life, physical damage, economic impact, or how it might impact 
our foreign policy. So those are some of the factors that we 
would evaluate of an attack of significant consequence.
    But I was----
    Ms. Gabbard. Could I just ask a follow-up to that?
    Mr. Atkin. Yes, ma'am.
    Ms. Gabbard. As you define loss of life, if there was an 
attack on an electrical grid, caused a major power outage, 
hospitals no longer able to care for people, and loss of life 
in that respect, would that fall under that definition?
    Mr. Atkin. I would have to say I am not sure I could answer 
a hypothetical like that. I think that the factors of the 
impact would certainly be evaluated and determined.
    What I would say is, regardless of whether it is an attack 
of significant consequence or not, the Department of Homeland 
Security would respond. And if they needed assistance from the 
Department of Defense, they would ask for that assistance, and 
we would respond with assistance through the Department of 
Homeland Security to help that critical infrastructure. Part of 
that occurred during Cyber Guard, where we exercised that 
capability. A request for assistance from the Department, and 
we responded.
    So the other piece of that is the National Guard, and they 
have cyber mission capability. They are being trained to the 
same capability as the rest of the title 10 force. And they can 
respond under their own State authorities. We recently 
completed the coordinate, train, advise, and assist policy 
guidance within the Department to allow National Guard troops 
to use Department of Defense resources to respond to a cyber 
event under State authority. And we are continuing to work 
other policies.
    I just recently set up a meeting to work with all the 
different combatant commands, NORTHCOM [Northern Command], PA-
COM [Pacific Command], Cyber Command, Joint Staff, and our 
Office of General Counsel to determine exactly how we are going 
to set up our defense support of civil authorities more 
holistically. The policy has been in process for a period of 
time, and I want to make sure we have senior leadership 
attention on it very directly.
    Ms. Gabbard. Thank you. I think this is something that, 
obviously, we are going to have to continue to discuss and 
understanding the differences of whether a state or non-state 
actor were to come and launch a traditional type of military 
attack on critical infrastructure versus a cyber attack, how 
the DOD is involved or not in those situations. You know, given 
the types of attacks that we are already seeing from both state 
and non-state actors in the cyber world, you know, having 
clearly defined roles and responsibilities between DOD and DHS, 
I think, is critically important.
    Thank you.
    The Chairman. I agree.
    Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    And thank you to the witnesses for testifying today and for 
your leadership on this issue.
    I want to focus my questions for the full panel on the 
evolution of the cyber threat and how we maintain the edge on a 
21st-century battlefield.
    The news, as you know, this past year has been filled with 
stories about the evolving strategic threats in the cyber realm 
from near-peer adversaries like Russia and destabilizing 
threats from both state and non-state actors within the Middle 
East. Just this week, I read an article that CNN reported that 
ISIS has been able to collect information on 77 U.S. and NATO 
Air Force facilities around the world.
    In March, at a hearing on this subject, I asked Admiral 
Rogers how confident he was moving forward that our cyber 
capabilities are robust enough to face the threats of the 
future on multiple fronts.
    Can you speak specifically to your concerns about 
adversarial cyber capabilities and your assessment of our own 
capabilities in comparison moving forward?
    And then the second part of my question is: Given the 
unique challenge of prosecuting simultaneous cyber threats from 
multiple adversaries, where do you feel the cyber community is 
assuming risk for readiness?
    General McLaughlin. So, ma'am, within this area--and I can 
address that and would also be glad to get into the specifics 
on the threat side when we are in the closed session. But, 
broadly, you stated it correctly. The threat today is diverse. 
It certainly is represented not only by large nation-states 
that are very, very capable, to organizations like ISIL or 
criminal or hacker organizations. The barrier to entry is not 
that high, and the ability to innovate and use technology to 
continue to evolve is actually there.
    On the Cyber Command side, I think the key thing that we 
think is important is focused on people and technology. I will 
do technology first.
    The ability to have the tools and the capability and sort 
of an integrated suite, a defense-in-depth approach across our 
whole enterprise, we think, is proving to be very effective. 
And the ability to bring new technology--that is one of the 
reasons the connection to Silicon Valley and other places is so 
important, is we don't field something, like a cyber 
capability, that we will use for a decade or a few decades. You 
know, we want the latest capability, and as soon as it is not 
the latest, we would like to have the next set of technology.
    So those tools and capabilities that are throughout the 
depth of our network are critical.
    The most important part, though, are our people. We have 
talked about the persistent training environment, but we 
haven't really talked about even the foundational training that 
goes into the cyber mission force.
    And some people ask why does it take a few years to take an 
initial accession and get them to that level, is that we are 
training all of our people to a very, very high standard, a 
joint standard across the force. Because, in our view, it is in 
the minds of our people that are going to allow them to keep up 
technologically with what the threat is doing.
    We are not just training our folks to operate equipment. We 
are training them to understand the domain, the foundational 
technologies, the advanced technologies. And, in some cases, 
they are adapting the technology that they have right there at 
their fingertips in real time to counter our adversary or to 
develop tools to do that.
    So I think the most important part for us to stay ahead is 
making sure that we invest in the people and that they have 
those types of skills.
    Ms. Stefanik. And on the multiple-fronts portion of the 
question, given the fact that there are multiple cyber threats, 
whether you consider a near-peer adversary like Russia or non-
state actors in the Middle East, where do you feel the cyber 
community is assuming risk to readiness?
    General McLaughlin. Well, I think the way I am going to 
answer your first question is thinking broadly, assuming risk 
to military force readiness broadly. Cyber is a thread through 
everything that we do--our platforms, our networks, our own 
critical infrastructure within DOD. And we can't defend 
everything all the time at the same level.
    And so the way that we have approached that, and, to some 
degree, broadly with the Department--this is not a decision 
Cyber Command on its own makes. But we are given a set of 
priorities of the most important combat and military 
capabilities that need to be hardened and defended and where 
mission assurance is most critical if they were to be attacked, 
across a broad front.
    And so we don't think about doing that against one threat. 
We sort of prioritize the most important things against the 
most important threats. And those are the things we think have 
to be defended at the highest level. And we would accept risk 
if there was an area that was either not as important or 
something we felt was lower down the priority, because you just 
can't defend all of it to 100 percent all the time.
    Ms. Stefanik. Thank you.
    Would the other witnesses like to add anything?
    Mr. Atkin. On the risk measurement, I would say that we 
evaluate the critical infrastructure that is required for the 
Department, using our mission assurance strategy and our cyber 
strategy combined, to identify those most critical elements of 
the infrastructure that we need to protect, and then we 
evaluate and prioritize those pieces.
    And we are not only protecting them from physical damage, 
but now we are also mapping out the key cyber terrain to 
understand where the most critical vulnerabilities are.
    Ms. Stefanik. Thank you. My time has expired.
    The Chairman. Mr. Ashford.
    Mr. Ashford. Thank you, Mr. Chairman.
    I would also like to second the comments regarding Chairman 
Wilson and Ranking Member Langevin for their leadership on 
Emerging Threats. It has been a very interesting year and a 
half.
    I have two topics I would like to cover. One is deterrence 
in the cyber world and then, secondarily, the Information 
Technology Exchange Program and how you see that evolving. I 
probably could start with General McLaughlin on deterrence.
    When we are dealing with what the public generally thinks 
about in the deterrence area, we are talking about nuclear 
weapons. In this case, we are dealing with cyber. We know to a 
certain extent how many nuclear weapons are out there. We can 
identify specifically the threat. And we have decades of 
experience in dealing with deterrence as it relates to nuclear 
weapons and other matters regarding deterrence.
    In cyber, where we have 80,000 or so attacks a year, it is 
hard to identify where they are coming from and who has the 
capabilities at any given time. It is very dynamic, and you 
have talked about that. Could you just kind of define for me 
what deterrence means in the cyber world and how that is 
evolving?
    Or Mr. Atkin.
    Mr. Atkin. I will go ahead and jump on that a little bit.
    So, from a cyber perspective, as we have mentioned before, 
a cyber attack doesn't always mean a cyber response. 
Attribution is key. And that is probably the greatest challenge 
in any cyber attack, is attributing it to either a state actor 
or a non-state actor.
    We look at it as we want to make sure that, from a 
deterrence policy, it is declaratory, that everybody 
understands exactly where we stand and that we are able to 
impose cost.
    So the first part of any deterrence policy and our 
deterrence policy is denial. We want to make sure we deny the 
adversary the opportunity to achieve the effects they are 
trying to achieve, and that is by developing and having good 
cybersecurity.
    The next piece we want to be able to do is have a very 
resilient system. And so we want to build the systems to be 
resilient. And if they are attacked, as General McLaughlin has 
already said, we can't protect everything all the time, but if 
they are attacked, that they will be able to be recovered and 
be resilient and back on line again, denying the adversary the 
goals they are trying to achieve.
    And then the third step of our deterrence policy is to 
impose cost. And that cost, whether it is diplomatic, law 
enforcement, economic sanctions, or military actions, to 
include cyber response, those are part of the deterrence policy 
that we would use to respond or to signal to a state or a non-
state actor.
    Mr. Ashford. General.
    General McLaughlin. Sir, just in accordance with the 
direction we received from OSD, even in the--Mr. Atkin 
mentioned the Secretary signed our new DOD cyber strategy. 
Within that was direction for us to actually take steps to meet 
those three goals.
    And our primary effort has really been all the defensive 
activity, the work we do to make our networks more resilient 
and to make it to where an adversary couldn't achieve their 
goals that they might try to achieve by attacking our cyber 
infrastructure. Many people don't think deterrence involves 
that, but it has really been the anchor of what we are doing, 
that we have been ordered to do and we are accomplishing within 
Cyber Command.
    The imposed-cost piece as just part of that force we have 
is aimed at bringing options to bear that would be there for 
the Secretary and the President, if that was directed.
    Mr. Ashford. Thank you.
    Could I just ask a question about the Information 
Technology Exchange Program? I believe in the NDAA [National 
Defense Authorization Act] we expanded that program a bit and 
added more slots.
    Is that program--so take, for example, the Sony case, where 
there were issues in the Sony technology that made it easier or 
less difficult to attack the Sony technology, whether it is the 
silos of their various businesses within Sony or whatever it 
is. So there are issues in the private sector that are 
different from in the DOD sector and Federal sector. And they 
are diverse, and it depends on the industry, and it depends on 
what they do.
    So is the purpose of the Information Technology Exchange 
Program to help to put in place people into the private sector 
directly to help them to deal with those threats?
    And then, vice versa, if there is somebody in the private--
as I understand it, this is what this is. So if in the private 
sector we have someone who is really exemplary or proficient in 
a particular aspect of cybersecurity, that we can bring those 
people in on a temporary basis to address those issues that we 
see. Is that essentially what we are doing here?
    Mr. Atkin.
    Mr. Atkin. Sir, I will have to take that one for the 
record. I am not as familiar with that program.
    [The information referred to can be found in the Appendix 
on page 57.]
    Mr. Ashford. But, okay, aside from that program then, are 
there other strategies that are in place to allow us to bring 
experts in the private sector into the military on a temporary 
basis and vice versa? Is that part of what we are doing? Maybe 
I misunderstood the program.
    Mr. Atkin. I am not--as far as actually bringing someone 
from the private sector into being a member of the military, I 
am not familiar with that program at this time. I know that the 
Secretary has talked about that as part of the force of the 
future, some of the changes. So I know that is something that 
he is beginning to talk about as we move forward.
    What I would say is that we try to leverage the skills from 
the private sector through our National Guard and Reserve 
forces, as we mentioned earlier, and leverage those skills that 
they gain in the private sector. And we also do things like the 
bug bounty, where we actually have hackers come in and take a 
look at our DOD systems and see if they can hack those systems.
    So there are different ways we are trying to leverage the 
private sector and the skills that the private sector has to 
improve our own cybersecurity.
    Mr. Ashford. Thank you.
    General.
    General Moore. Sir, if you are referring to the 
Cybersecurity Information Sharing Act--I think that is what you 
are referring to----
    Mr. Ashford. Right.
    General Moore [continuing]. That the Congress recently 
passed, that has gone a long way towards helping the Federal 
Government share threat information with industry and vice 
versa.
    The two main benefits of that act are that it, first off, 
reduces the risk of any legal liability to any of those 
industry partners that we have when they share that 
information, and also decreases any economic or business 
advantage that might be gained through the act of sharing that 
type of information. So it is really knocking down a lot of 
those barriers.
    Mr. Ashford. Thank you, Mr. Chairman.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    This will be a question for all of you. Do any of you 
believe that the Department of Defense should use equipment 
provided by Huawei or ZTE, each of whom have links to Chinese 
military and intelligence apparatus, and each of whom have 
links to sales, illegal sales to Iran, in violation of U.S. 
sanctions?
    Mr. Atkin. Sir, I am not as familiar with those 
technologies. Certainly, we would want to take those factors 
that you just highlighted into consideration, if we were going 
to use anything like that, and those would probably be--the 
risk would have to be evaluated based on those threats on 
whether we would use those technologies.
    Mr. Rogers. So you are not familiar with either of those 
two Chinese providers?
    Mr. Atkin. I have heard of them, but I am not a technical 
expert to make a good decision.
    Mr. Rogers. General McLaughlin.
    General McLaughlin. So, sir, I would just say, so I haven't 
heard of the first company that you mentioned, but what I would 
say broadly is all the equipment that we use or field as part 
of our DOD mission, you know, it is heritage, and the supply 
chain associated with that is something that is important that 
we assess. Based on the utility of that equipment, we assess, 
you know, what vendors are appropriate and which ones shouldn't 
be.
    So I am not prepared to tell you, because I just don't know 
what exclusions might be there for both of those companies 
broadly across the DOD. But I do know for our core 
capabilities, it is something that before we buy it, we buy 
that capability, its security and that our knowledge of its 
supply chain go into the factors before we make a broader 
procurement.
    Mr. Rogers. General.
    General Moore. Sir, I am really just piggybacking on what 
the two other gentlemen have said. Supply chain vulnerabilities 
are absolutely real and they should be considered anytime we 
are looking at any equipment that we might purchase on behalf 
of the DOD or the Federal Government.
    Mr. Rogers. That was with relation to DOD, you are saying. 
What about a U.S. cleared contractor? Do you apply a different 
standard to them? What would you advise them if they were 
thinking about using equipment from one of those two Chinese 
firms?
    Mr. Atkin. Sir, I am not--again, I am not on the 
acquisition side, and I know that we work very closely on the 
acquisition side with the different contractors through the 
defense industrial base and to ensure that their systems are 
secure. So we are always looking at the supply chain 
vulnerabilities and the risk. And so our advice to any of the 
contractors that support the Department of Defense or any of 
the interagency, I think we would recommend them to take a hard 
look at their supply chain vulnerabilities and to ensure that 
their information is secure and their operations are secure.
    Mr. Rogers. So I guess I am hearing from you all that you 
don't have a list of Chinese firms that you are concerned about 
right now, or you have a list, but you are not familiar with 
it?
    Mr. Atkin. Sir, I am not familiar with a list.
    Mr. Rogers. Do you know if you have a list?
    Mr. Atkin. I do not, no, sir. And we can take that for the 
record.
    [The information referred to can be found in the Appendix 
on page 57.]
    Mr. Rogers. Yeah. General McLaughlin, do you know if you 
all have a list of Chinese firms you are concerned about having 
access to your supply chain?
    General McLaughlin. Sir, I don't. I just--because it is all 
handled within our acquisition chain of command--you know, the 
folks that actually procure our equipment, which is outside 
what we do at U.S. Cyber Command.
    Mr. Rogers. If you could do what Mr. Atkin just said, take 
it for the record and let me know back, I would appreciate 
that.
    Thank you, Mr. Chairman. I yield back.
    [The information referred to can be found in the Appendix 
on page 57.]
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen. I am not sure if you answered this. 
Sorry. I was at a Homeland Security classified briefing. But I 
do want to ask about the Secretary of Defense announced we were 
doing cyber operations against ISIS just starting a few months 
ago. The caliphate was declared 2 years ago. I know probably 
the details would be more in a classified realm, but this is a 
very important domain, and this terrorist organization is using 
cyber in a way that we have never seen other terrorist 
organizations use before.
    What took so long and what was the decision-making process 
that is having almost 2 years go by before even thinking about 
fighting in this domain?
    Mr. Atkin. Ma'am, that is a great question. I think the 
bottom line is that we probably started more than 2 months ago. 
I don't have the exact date and time that we began to conduct 
cyber operations against ISIS. We continue to respond to ISIS 
and their--both the use of the social media, the sharing of PII 
[personally identifiable information] about military service 
members and their families. And so it wasn't always necessarily 
a cyber response to ISIS, but it certainly was a response to 
their cyber activities.
    Ms. McSally. So I know there is always this tension, I 
mean, I was in the military, between keeping comms 
[communications] up and running so that we can collect on it 
versus taking it out so they can't communicate. But, you know, 
we have known cells in Raqqa that are directing training, that 
are directing operations very specifically, you know, targeting 
against Americans' way of life.
    Why isn't the Internet shut down in Raqqa? Like, why did we 
not have cyber operations 2 years ago going against their 
command and control as part of our centers of gravity and using 
all elements of military power to take them down?
    Mr. Atkin. Yeah. And I know they will get a little bit more 
into this in the closed hearing later today, but the fact is we 
were going after their command and control systems. We may not 
have been using necessarily cyber activities to do that. There 
always is a balance between collecting information and shutting 
it down.
    And certainly, going after specific nodes to hamper and 
stop the use of the Internet by ISIS is important, but we also 
have to respect the privileges and rights of citizens to have 
access to the Internet as a whole and as a country. So it is a 
careful balance, even in Raqqa or Mosul or anywhere, on how we 
balance the rights to have access to the Internet versus the 
use of the Internet illegally by folks like ISIL.
    Ms. McSally. Yeah. I would like to follow up for sure in 
the classified setting with a little more details.
    The second question is we were dealing with this, my last 
assignment was at Africa Command, just trying to deal with the 
functional commands and the geographic commands. Can somebody 
speak to, I don't know, General McLaughlin, how the 
relationship is working and is there duplication of cyber 
capabilities at the geographic commands? And how does that work 
if you are conducting operations and the coordination with the 
geographic commands?
    General McLaughlin. Yes, ma'am. I think it is working 
pretty well and I don't see any duplication right now. And when 
we--later, we will give you some great details with regard to 
U.S. Central Command, but generally, each of those combatant 
commands has a cyber element within it that is at their 
headquarters level, and their job really is sort of 
understanding broadly what their command is trying to achieve 
in the domain. We have the forces that are actually, you know, 
both the defensive and offensive forces that they are using. 
And so the practical way that it is working today, for example, 
you know, in real world operations is we have, you know, daily, 
you know, whether it is targeting meetings or planning sessions 
where the supported commander and our staffs and our teams are 
interacting routinely.
    Our job is to support them, and, you know, we deliver the 
effects, you know, on the targets they need at the time they 
need, but we bring the capability.
    Ms. McSally. Okay. Thanks. My last question is about the 
laws of armed conflict and some of the challenges that we have 
had in this domain in identifying what is an armed attack and, 
you know, what constitutes the ability to be able to respond 
and Article 5 and all that kind of stuff. So can there--can we 
just have some comment on where we are on that and whether 
there is still some further definition that needs to happen 
related to the clear authorities that are needed to be able to 
operate in this domain?
    Mr. Atkin. I would say specifically to your question what 
defines an act of war, I think is what your question is 
regarding cyber acts, that has not been defined. We are still 
working towards that definition across the interagency.
    As far as an attack of significant consequence, which the 
DOD would respond to, in the homeland, we don't necessarily 
have a clear definition that says this will always meet it, but 
we do evaluate it based on loss of life, physical property, 
economic impact, and our foreign policy. So there are some 
clear lines in the road which we would evaluate any specific 
cyber act or incident and how we would respond to that.
    Ms. McSally. Okay. Great. My time has expired.
    Thank you.
    The Chairman. Let me follow up on just a couple things.
    Mr. Atkin, I understand the concept of proportionality as 
you are looking for any sort of military effects. But are you 
arguing that the citizens of Raqqa have some sort of inherent 
right to access the Internet that you all have to try to weigh?
    Mr. Atkin. What I am trying to explain is that I think that 
when we start talking about taking out the Internet, there are 
always challenges to how you do that and where you do it in 
space. So the Internet service providers who provide that 
Internet service to a region are much broader, generally, than 
just the adversary's single command and control node. And so 
how that effect occurs has greater impact than just against the 
adversary, and we have to weigh that in when we make all our 
decisions. And whether that is a kinetic or a cyber operation, 
those factors are always weighed in and the impact to the 
civilian populace.
    The Chairman. Okay. Well, I think I understand the concept 
of proportionality, as I say, throughout warfare. I just got 
concerned there for a second that there was some sort of 
inherent right to be on the Internet that was a factor in you 
all's decision making.
    I want to go back. I think both the generals mentioned the 
importance of speed of decision making. Mr. Smith asked earlier 
about NSC and when you have got to keep them informed and when 
you have got to get permission. There has been a fair amount 
written about the air campaign, and I had quoted Secretary Work 
earlier who said, just like we have an air campaign, I want to 
have a cyber campaign.
    Some of the things that have been written about the air 
campaign are that for some sorts of--so we have got airplanes 
circling above Iraq or Syria. For some sort of attacks, then a 
certain level of command can make a decision, say it is okay to 
drop your bomb. Others have to go up to the CENTCOM, others 
have to go up to the Secretary of Defense, some have to go to 
the President. Meanwhile, the planes, they are circling. And 
that one of the challenges to being more effective against ISIS 
is this multilayered decision-making process, which has slowed 
down or hindered the ability of our military to be as effective 
as they could be. Now, that is with bombs, an air campaign.
    I am concerned, I guess, that we are developing the same 
sort of multilayered bureaucracy decision-making process when 
it comes to cyber. And part of the challenge with the air 
campaign is by the time you get permission to do it, the target 
is gone. And I have personally talked to pilots that have had 
that happen. Now, when things are moving at the speed of light, 
if we go through this multilayered decision process to push the 
button on a cyber response, then we are going to be hopelessly 
behind.
    So, I guess, if anybody can address where we are with this 
speed of bureaucracy matching the speed of the world that would 
reassure me, I would like to hear it.
    Mr. Atkin. Yes, sir. What I would say is in the area of 
hostilities, CYBERCOM has the authorities by which to operate 
and conduct cyber effects and make that decision at the 
CYBERCOM level. So they certainly have those authorities to do 
that. And I think they can talk more in greater detail in the 
closed session this afternoon on the specific authorities that 
they do have.
    The Chairman. Okay. Well, we will talk more about it. But, 
again, just drawing the analogy to the air campaign, I am not 
yet reassured.
    Mr. Atkin, I want to follow up Mr. Lamborn's question about 
the NATO announcement last week. Does that NATO announcement 
indicate NATO has agreed that a cyber attack can trigger 
Article 5?
    Mr. Atkin. That is my understanding.
    The Chairman. And so then the question for the NATO nations 
is going to be at what level of cyber attack would trigger 
Article 5, because there are at least media reports of a fair 
amount of constant cyber activity in some of the Baltic and 
Eastern European countries coming from the east.
    Mr. Atkin. As far as I know, there has not been a 
determination made or a decision made on what would constitute 
a cyber attack that would trigger Article 5, so I would have to 
take that one for the record.
    [The information referred to can be found in the Appendix 
on page 57.]
    The Chairman. Okay. And, finally, the questions that Ms. 
Gabbard was asking about defense of civil authorities and 
attack of significant consequence, is one of the factors which 
would be considered in determining whether it is an attack of 
significant consequence who the actor is, whether it is a state 
actor or not?
    Mr. Atkin. That could be a factor, but I wouldn't say it is 
one of the primary factors. The primary factors are loss of 
life, economic impact, how it may impact our foreign policy, 
and then physical property. So those are the four primary 
factors that we would evaluate from an attack of significant 
consequence, whether that is a state or non-state actor.
    The Chairman. I guess the questions that come to my mind 
relate to, say, terrorism information we get. We may get 
information that a terrorist attack is in the works. We don't 
know exactly what the target will be, we don't know exactly 
what the consequence will be. And if you have to wait to see 
what the consequence is, then it is going to be too late, 
right?
    Mr. Atkin. Yes, sir. I would also say it is similar to a 
cyber threat. If you have an unknown--you have a known--I guess 
I will back up.
    If you have the potential for a cyber attack, but you don't 
know where it is coming from, you don't know who is going to do 
it, you certainly would alert people to provide them an 
opportunity to maybe heighten their security, just like we do 
in the physical world with a terrorist threat where we are not 
sure exactly the when or where it will happen. I would say 
very----
    So it is similar, but we can't necessarily--if we don't 
know where it is coming from and who is going to do it and how 
it's going to happen, it is very hard to go in and then stop 
that from happening.
    The Chairman. Yeah. Well, I understand. And I realize you 
don't want to get into hypotheticals. My concern is we know 
where it is coming from. Country X, Y, Z that has tremendous 
cyber capability is preparing to do something, and the question 
is whether we wait and let them do it or try to at least take 
defensive action to manage the consequence of it. And to me, 
that is where this gets very difficult.
    I understand, you know, if we know it is going to have 
significant loss of life, yeah, that is pretty easy. But if we 
see--and I guess I would say the difference is we know ISIS is 
going to do whatever they can get away with, so they are going 
to use their full capability to kill as many people as they 
possibly can. We don't know that about some state actors who 
have tremendous cyber capability. And so waiting to see how 
much of their capability they will use and how that fits into 
this standard of attacks of significant consequence seems, to 
me, to be somewhat problematic.
    Mr. Atkin. Well, sir, I think we are maybe talking past 
each other a little bit. One is how we respond to an attack and 
when we respond under defense support of civil authorities 
versus making sure we have a good cybersecurity posture to make 
sure that we are defended prior to an attack. So certainly, 
there is--we would not necessarily evaluate the potential 
before it happens. We would go ahead and provide defensive 
measures through DHS, with DHS to help prevent an attack, and 
then we evaluate after an attack happens.
    The Chairman. Yeah. I realize these terms get a--okay. So 
we are going to wait back and defend, but we are not going to 
take action to prevent the attack to begin with. And then so 
the definition of offense and defense in this situation gets a 
little tricky. And I am not trying to pin you down. I am just--
--
    Mr. Atkin. No, no. I----
    The Chairman [continuing]. Trying to explore some of the 
complexities of these challenges.
    Mr. Atkin. Certainly, a known threat coming from a known 
actor that we know is coming after the United States, I would 
say that we would certainly evaluate that. And those decisions 
would be made by the Secretary and the President on what kind 
of actions we would take to stop that from happening, and that 
would be on a case-by-case basis.
    The Chairman. Yeah. Okay.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Again, thank you to 
all of our witnesses here.
    I just want to go back to the training environment again. 
General McLaughlin, the House Armed Services Committee, as you 
know, fully funded the persistent training environment 
initiative, and I understand other committees did not provide 
full funding. So my question is, can you describe the 
persistent threat training environment and the impact of 
proposed cuts? And what stage is the concept in? Has it been 
fully approved by the Joint Staff?
    General Moore. Sir, if it is okay, I will attempt to answer 
that question for you.
    Mr. Langevin. Sure.
    General Moore. So as was indicated earlier, persistent 
training environment gives us a couple of things that we don't 
currently have, like on the Joint Information Operation Ranges. 
We don't have the scale of the complexity to truly represent a 
realistic and relevant threat, the ones that we are truly 
trying to train to. So that is the big advantage that it gives 
us, and, of course, as the name indicates, it is permanent.
    Right now, the initial capabilities document is under 
review, it should be signed within the next 1 to 2 weeks. And 
if that happens and the funding stays in line, we expect to 
have an IOC [initial operating capability] by fiscal year 2019.
    Mr. Langevin. Very good. Thank you.
    I know we have talked about this on some point, but General 
McLaughlin and General Moore, what role does the Cyber Threat 
Intelligence Integration Center, established in 2015, play in 
support of cyber operational planning?
    General McLaughlin. Sir, in terms of cyber operational 
planning, on our day-to-day operations at U.S. Cyber Command, 
it is not playing a role in the planning side. It is mostly 
playing a role of collecting, you know, integrating 
intelligence and information on what the threat is doing and 
then at times, you know, providing information back out to all 
the rest of the government operation centers. But they are not 
playing any operational planning role in support of U.S. Cyber 
Command missions today.
    Mr. Langevin. Very good. Thank you.
    And, General McLaughlin, let me ask you, what lessons have 
been learned about the construct of the cyber mission force 
over the last year? Is the force manned, trained, and equipped, 
and postured correctly to address threats in their respective 
mission areas?
    General McLaughlin. Sir, I believe we have learned that it 
is manned and equipped properly and postured to respond. Some 
areas that we have learned, we think, in this space, agility is 
really important. And we have found and in many cases we have 
task organized sub-elements of teams. We will--each of those 
teams is comprised of specific sets of skills. And we have 
learned that it is very effective to take sub-elements of 
certain teams and task organize them against a specific problem 
set or a threat and leverage, you know, smaller, more agile 
elements of those teams, whether they be defensive or offensive 
teams, to provide you a more immediate and a more tailored 
mission capability.
    And so we initially didn't think about it that way, but we 
have some very innovative commanders that use that approach. We 
do that in other domains of warfare. We task organize, and it 
works really well in the cyber mission force. It is one example 
of what we have learned of a way we would employ it. The basic 
building blocks, we think, are sound, but at times how we might 
sort of tactically organize it for a specific dynamic problem, 
that task organization has proven to be a great agile way for 
us to think about how we employ it.
    Mr. Langevin. Very good. And going back to the concept area 
of the Cyber Guard exercise that we just had. If we have a 
large-scale cyber attack that leads to infrastructure damage 
and DOD is called in to assist, what organization within DOD 
will take the lead? And in this scenario, what will NORTHCOM's 
role be, and how is DOD getting ready to assist after such an 
attack?
    Mr. Atkin. So NORTHCOM would, obviously in the case of a 
defense support to civil authority, they would have command and 
control responsibility. CYBERCOM would be in support of that. 
The force that would be responsible to respond would be 
determined on what the specific request was from the 
interagency. So it could be road clearing, it could be helping 
transport something from one location to another, which would 
be a TRANSCOM [Transportation Command] responsibility, road 
clearing was the Army Corps of Engineers. And if it is a cyber 
response where we need to help from a cyber perspective, it 
would be CYBERCOM.
    Mr. Langevin. Very good. Thank you.
    Could we--well, before my time is about to expire, in terms 
of, for the record, building out the training environment, what 
is still needed and how can we be of assistance further?
    General McLaughlin. So, sir, right now, the main thing that 
is needed is the broad four elements of that persistent 
training environment. We have some parts of it, but the--we 
have one part, it is called the event management side of it, is 
where we actually plan all the training events that would need 
to occur globally, assess the performance of each of the 
players that are being evaluated, where our aggressor force 
would reside. It is really all the things that make it 
training. That is one of the key things that the fiscal year 
2017 budget request is the first real year of commitment to 
that funding, is building the technical capability to manage 
all of that capacity.
    And so what you saw last week was really a manual way of 
doing that, not at scale. And so what we are trying to build is 
the foundational technical capability to do that routinely at 
scale and to have the people there that actually provide that 
training. And that is what we want to get started on really 
seriously in fiscal year 2017.
    Mr. Langevin. Well, we look forward to continue supporting 
you in that effort, General, as you build that out. As for me, 
it was time well spent going to see that exercise, and I 
encourage others to do the same. So thank you.
    And with that, I yield back.
    The Chairman. Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    And I just wanted to follow up, Mr. Atkin, on a question 
from Mr. Rogers' line of questioning about China. I understand 
that you are not involved with the acquisition side of the 
business, but from a cybersecurity perspective, how concerned 
are you about counterfeit parts entering into our systems, and 
how can we best defend those threats?
    Mr. Atkin. As mentioned, we constantly and consistently 
look at our cyber chain vulnerabilities and evaluate, working 
with our defense industrial base partners and other contractors 
that provide resources for the Department, on different 
vulnerabilities and how we would stop those vulnerabilities, to 
make sure that the only equipment that comes into the supply 
chain is free of counterfeit or high-risk material.
    Mrs. Walorski. Thank you.
    And, General McLaughlin, I want to direct this question to 
you, but I want to just give you a really quick background. I 
represent the great State of Indiana, where we have Muscatatuck 
Urban Training Center. This remarkable training facility 
includes its own fully functional power plant. At this training 
center, rotational units are able to participate in a number of 
real scenarios, but one of the most compelling is where the 
power grid there is hacked or taken offline in the exercise. As 
I consider the devastating consequences associated with that 
kind of attack to our grid, I am interested if the Department 
has the training resources necessary to adequately prepare for 
one of these scenarios.
    So to you, sir, you described the Cyber Guard and Cyber 
Flag exercises in your remarks earlier. Are you confident in 
your ability to fully stress your forces in a way that prepares 
them to respond and defend against any sort of contingency 
scenario? And then, what are the gaps, the significant gaps in 
training, if there are any?
    General McLaughlin. So, ma'am, I would say today we are--I 
wouldn't be able to say that I am confident that we are able to 
respond to all of those. You listed a broad range of potential 
contingencies.
    The reason the persistent training environment is so 
important, you just--in fact, I would love to learn more about 
the capability you just described in Indiana. But part of that 
persistent training environment is being able to replicate each 
of those unique classes of terrain. Industrial control systems 
are different than platforms like airplanes and tanks, and they 
are different than just networks. So part of what we will build 
are the high-fidelity replications of each of those unique 
types of targets that we would need to defend against.
    We are building the ability for civil or other partners to 
bring their own range emulations and connect into that 
environment, and then the people that want to actually do it, 
have the place to sit down, plug into what looks to them to be 
their realistic replication of what they are trying to defend, 
and then do their job in a realistic scenario against hackers 
or, you know, attackers that are trying to do it.
    So today, I would say we don't have the capacity at scale 
to cover that range. We have a concept. That is why we are 
proceeding with our program to actually do that. And it has the 
flexibility to accept the ability for other partners, non-DOD 
partners, to plug into that environment and do training. We are 
doing it manually today at Cyber Guard, and I think you will 
see us do that more at scale with more partners than just, you 
know, U.S. DOD participants.
    Mrs. Walorski. I would like to invite you, General, to come 
into Muscatatuck in Indiana. I would love to share additional 
information with you about their capability and having those 
resources there with that fully functioning power plant, what 
they have been able to learn, the kind of activities they are 
running, and what it does, I think, for training for all of our 
forces. So I would love to extend an invitation to you to come 
there and see it for yourself.
    General McLaughlin. Yes, ma'am. Absolutely. Thank you.
    Mrs. Walorski. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    And, gentlemen, thank you for being here today to discuss 
what is really a turning point in our approach to offensive and 
defensive military policy.
    Being a member of the Judiciary Committee, specifically the 
IP [Intellectual Property] Subcommittee, cyber and tech issues 
are at the forefront of my mind, and I am encouraged to see 
that we are taking necessary steps to ensure that the U.S. 
maintains a comparative and competitive advantage in this 
arena.
    Mr. Atkin, with respect to--well, I will ask this question 
first, because it is related to the previous question that my 
colleague, Mrs. Walorski, asked.
    With respect to the coordination with civil authorities, 
specifically at the State and municipal level, and in 
consideration of the fact that U.S. Army Cyber Command is 
moving to Fort Gordon, I have heard concerns about how this may 
put neighboring communities at risk. For example, if Fort 
Gordon is hit with a cyber attack, is it independent enough 
from the local energy grid, that it does not down power to the 
entire region, affecting hospitals, schools, et cetera? And 
what can we do in Congress to help facilitate coordination with 
local authorities in the event that such an attack happens?
    Mr. Atkin. Sir, for----
    Mr. Johnson. And I am sorry. I meant to ask that question 
of General McLaughlin.
    General McLaughlin. So, sir, I am not aware right now of 
any element of the move that you just--you mentioned a concern 
potentially with U.S. Army Cyber Command moving to Fort Gordon. 
The scenario you described is not one that has been brought to 
my attention, so I am not aware of any direct connection of 
that move to an increased threat or risk to the local 
community.
    We do step back and look broadly at the risk to all of our 
military installations. Many of them for their critical power 
and infrastructure are using, you know, commercially provided 
control systems for, you know, electricity, water, and power. 
But we haven't really seen any analysis that shows the location 
of military installations is driving a higher likelihood that 
an attack against them would have some unique impact on the 
local community.
    So I am not saying that it wouldn't, I am just not aware of 
any analysis.
    Mr. Johnson. Well, I have heard concerns about it from 
State and local officials, and I think it is an area that 
reassurance is due, at the very least. So in terms of 
coordinating with State and local leaders, I think that that 
would be something important for you to consider. And I thank 
you for that answer.
    Mr. Atkin, with respect to the development of cyber-related 
technology, much has been said of the need for DOD to attract 
brilliant hacker minds from the private sector. How can we in 
Congress help improve the DOD's ability to attract tech 
startups who are leading the way in cutting-edge technology?
    Mr. Atkin. Thank you, sir, for that question. I would say 
the first stop would be, which is something that you have 
already provided, which is excepted service opportunities for 
the civilian sector or the civilian personnel in the Department 
involved in cyber activities. I would say the broader we can 
make this excepted service across the entire cyber enterprise, 
that would be very helpful. So broadening out the excepted 
service for civilian employees would be helpful to be able to 
bring in those really smart hackers and other people that have 
a cyber background.
    Mr. Johnson. I have even heard some suggestions about 
creating startup incubators within specific government 
agencies. Do you see that as something that can be coordinated 
within DOD?
    Mr. Atkin. Sir, I am not familiar with the incubator model. 
I know that we reach out through our Defense Innovation Unit 
Experimental out on the West Coast and how we work with Silicon 
Valley and others. I know that we leverage the skill sets of 
our Reserve and National Guard force to make sure that we--
those are the young, smart minds that are working in the 
private sector and bringing expertise back into the Department 
through their Reserve and National Guard status. So I know we 
are going that route, but I am not as familiar with the 
incubator model that you describe.
    Mr. Johnson. Either one of you, General Moore or General 
McLaughlin, care to comment about that?
    General Moore. One of the brother systems, if you will, or 
programs to the DIUx that Secretary Atkin mentioned is the In-
Q-Tel model, which was actually started at the CIA [Central 
Intelligence Agency] organization, overt. Right now, there is 
about eight governmental agencies or organizations that go 
through the In-Q-Tel model specifically out in Silicon Valley. 
And you can think of it more of as a venture capitalist type of 
organization, where we bring problems that we want innovative 
and quick, hopefully, solutions to.
    That money is taken by the In-Q-Tel organization and 
invested in many times these startup organizations that have 
innovative technologies. And we have started that program at 
the Department of Defense to help us solve another specific 
problem, and I see that program continuing to grow. It has 
showed a lot of promise.
    Mr. Johnson. Thank you.
    Mr. Atkin. One other--our Defense Digital Service recently 
ran a bug bounty using a hacker program basically to contract 
out for hackers to come in and take a look at DOD systems and 
to see if they could hack into it. So that was another model by 
which we did reach out to the private sector and leverage the 
skill sets they have to improve our own cybersecurity.
    Mr. Johnson. Thank you. And thank you for your service to 
the Nation.
    And with that, I yield back.
    The Chairman. Chairman Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. As we conclude, I 
think it is quite appropriate that Kevin Gates of the Emerging 
Threats Subcommittee is seated with the chairman. I really 
appreciate, Kevin has an almost 20-year history of working on 
these issues, before many of us had ever heard of them.
    So, Chairman Thornberry, we are just fortunate to have such 
great people who are assisting our country protecting American 
families.
    General Moore, what legal or policy framework governs 
information conflict of the sort evolving from the use of 
social media for propaganda and recruitment? As a tactical 
matter, how successful are efforts to counteract the use of 
social media?
    General Moore. Yes, sir. So as I think you are keenly 
aware, a lot of what we are doing to counter ISIL in Iraq and 
Syria revolves around using cyber as a conduit for military 
information support operations, or MISO/PSYOP [psychological] 
operations, to specifically get after those types of problems. 
We have the authorities to conduct those types of operations, 
and I don't see any limitations at this time.
    Mr. Wilson. And indeed, sadly, we saw with the San 
Bernardino mass murder, with the Orlando mass murder, there was 
a direct social media contact and availability that has 
resulted in mass murder across our country.
    Secretary Atkin, I was grateful, in a deterrence policy you 
mentioned multiple responses that are possible. And that can't 
be more important than right now because we have had so many 
incidents of cyber attacks just in the last month. The 
Democratic National Committee came under cyber attack, there 
were North Korean attackers of smartphones of South Korean 
officials, there were power outages affecting tens of thousands 
of people in western Ukraine; over and over again, just 
incidents that are incredible.
    And then one that got my attention at the very time that 
the dangerous Iranian nuclear deal was being put together. In 
November 2015, Iran's Revolutionary Guard hacked the email and 
social media accounts of a number of Obama administration 
officials in an attack. Was there any response to that attack?
    Mr. Atkin. I am not familiar exactly with the event and 
what our exact response was of all those situations that you 
describe, but what I would say is when we are able to have 
attribution, that we would respond at a time and manner and 
place of our choosing.
    Mr. Wilson. Well, it is so obvious it was in such bad 
faith, the Iranian Revolutionary Guard would, at a time of 
negotiations or implementation, show such bad faith as to 
attack the Obama administration that was placing such faith in 
them. But we certainly want to be working with you, and there 
just has to be multiple responses that make sense.
    And I want to thank you all for being here. And I yield 
back the balance of my time.
    The Chairman. Mr. Atkin, Mr. Wilson prompts me to try one 
more question. Okay. The primary job of CYBERCOM is to defend 
DOD networks. But in thinking about defense support to civil 
authorities, if there is a foreign country that launches some 
sort of cyber espionage or cyber attack against a server, a 
private server by the Secretary of State, or looking for 
information about a leading candidate for President, is that an 
attack of significant consequence? It is not against DOD 
networks, but it goes to either government officials or someone 
who is wanting to be a government official.
    Mr. Atkin. Yes, sir. So we would evaluate each attack, if 
we were evaluating based on whether it was an attack of 
significant consequence on the loss of life, property, damage, 
economic impact, and foreign policy. So I would say we would 
evaluate each of those attacks based on that factor on whether 
and how we would respond.
    The Chairman. Seems to me it is pretty tricky when you 
start into political campaigns, say somebody is the nominee for 
President, if there are further sorts of espionage.
    I was just about to adjourn, and Mr. Franks walks in. Do 
you have a question?
    Mr. Franks. Mr. Chairman, I do, but I will be brief, sir.
    The Chairman. The gentleman is recognized.
    Mr. Franks. And I appreciate your forbearance, to say the 
least. I didn't mean to come in and--you know, sometimes 
people, when they walk in, end the party. That is usually the 
situation for me.
    General McLaughlin, I will be really brief here. In an open 
setting, the best you can, how is Cyber Command being employed 
to fight against the Islamic State?
    General McLaughlin. So, sir, you know, in this setting, 
and, again, we will get into more detail with you in the closed 
session, our organization and the teams, the tactical forces 
that are within U.S. Cyber Command, a subset of those have been 
allocated and directed to support operations against the 
Islamic State. We are operating in support of U.S. Central 
Command. It is, you know, a focused activity that is recurring 
and is a major element of what the command is focused on day to 
day. We have leaders within our organization who, you know, 
subordinate leaders to Admiral Rogers, that it is their only 
job. And we are bringing--every capability that we have in this 
area that are available to us, we are making available to that 
fight.
    Mr. Franks. Are there any restrictions that might be called 
rules of engagement or anything like that on how the command 
might be employed against the Islamic State, any restrictions?
    General McLaughlin. Well, sir, a bit earlier, one thing Mr. 
Atkin described is within the area where we are actually 
conducting these operations, we have adequate authorities, the 
authorities we need to operate. Our operations in cyberspace 
are subject to the same, you know, rules of every operation. So 
we are constrained by the law of armed conflict and other 
limitations, but they are really not any different for what we 
are doing as in any other domain. So within the operation, we 
feel like we have the authorities and the flexibility we need 
to support that particular operation.
    Mr. Franks. One last question, Mr. Chairman.
    We know a little about the cyber doctrine and military 
structure of adversaries like Russia, China, and others. What 
is our understanding of those things related to actors like 
Syria, Iran, Israel, or Germany?
    General McLaughlin. Well, sir, I would just say, you know, 
in this setting, what we know about the cyber aspirations of 
our potential adversaries, all I would say is we know that most 
of them have realized this is a tool available to them, you 
know, as an instrument of power, and it is a tool they can use 
without a significant amount of investment, and they can have a 
relatively small number of people, or buy expertise.
    Our coalition partners, those countries that we partner 
with, we are partnering with each of them as they--and many of 
them are on their own looking at building military cyber 
capability, and we partner with them closely. They visit, they 
are looking for advice from DOD and the United States. And to 
the degree they want to come see this, we routinely meet with 
them and talk with them about how we could help them, you know, 
be part of a broader group that can defend themselves and 
operate together in cyberspace.
    Mr. Franks. Well, thank you.
    Mr. Chairman, I yield back my minute and 54 seconds. Thank 
you, sir.
    The Chairman. I thank the gentleman.
    Thank you all for being here and for answering our 
questions. We will look forward to seeing you a little bit 
later today.
    The hearing stands adjourned.
    [Whereupon, at 11:52 a.m., the committee was adjourned.]
      
=======================================================================

                           A P P E N D I X

                             June 22, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 22, 2016

=======================================================================
      

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 22, 2016

=======================================================================

      

            RESPONSE TO QUESTION SUBMITTED BY MR. THORNBERRY

    Mr. Atkin. At the NATO Summit in Wales in 2014, Allies affirmed 
that cyber defense is a key part of NATO's core task of collective 
defense and agreed that a cyberattack could reach the threshold of an 
armed attack which could potentially trigger an Article 5 (i.e., 
collective self-defense) response.
    NATO did not specify the threshold at which a cyberattack might 
constitute an armed attack. Similar to kinetic attack, a cyberattack 
and its effects would be assessed on a case-by-case and fact-specific 
basis by the victim nation. If the victim nation decided that an attack 
were an armed attack, it could then submit a request to the North 
Atlantic Council for an Article 5 response.
    NATO's lack of specificity regarding the threshold for a 
cyberattack is consistent with U.S. policy. When determining whether a 
cyber incident constitutes an armed attack, the U.S. Government 
considers a number of factors including the nature and extent of injury 
or death to persons and the destruction of, or damage to, property. 
Besides effects, other factors may also be relevant to a determination, 
including the context of the event, the identity of the actor 
perpetrating the action, the target and its location, and the intent of 
the actor, among other factors.   [See page 25.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Atkin. DOD does not ``blacklist'' suppliers or individual 
products. It does create Approved Product or Supplier Lists 
(Whitelists) of products or organizations that have been assessed for 
use in certain applications. There are currently no Huawei or ZTE 
products on the DOD Unified Capabilities Approved Products List (APL). 
The fact that a product does not appear on an APL does not mean 
contractors cannot offer bids or that the government can still select 
outside the APL. Short of suspension and debarment, federal contractors 
and vendors are not precluded from competing on DOD contracts. It is 
the policy of the DOD to solicit from a broad number of potential 
offerors and award contracts based on full and open competition to the 
maximum extent possible.
    ZTE Corporation is a unique case because the Department of Commerce 
added it to the Entity List, which is a list of foreign entities that 
are subject to specific license requirements for the export, reexport, 
or transfer of items subject to the Export Administration Regulations.   
[See page 22.]
    General McLaughlin. [The information referred to is classified and 
retained in the committee files.]   [See page 22.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. ASHFORD
    Mr. Atkin. The ITEP program is the only IT/Cybersecurity-specific 
personnel exchange program currently available to the Department. At 
the end of 2015, DOD-CIO established a management office to oversee the 
ITEP program and identified a funding source. The program office has 
been able to identify, vet, and place three industry participants in 
DOD positions and five DOD Civilian personnel in industry positions. 
The program office is working to vet additional candidates and place 
another two candidates to meet program capacity allotted in the ITEP 
legislation.   [See page 20.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 22, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Do you recommend the Department of Defense rely on 
equipment provided by Huawei or ZTE, which are linked to the Chinese 
military and intelligence apparatus and have been linked to sales to 
the Islamic Republic of Iran, in violation of U.S. sanctions laws?
    Mr. Atkin. DOD does not ``blacklist'' suppliers or individual 
products. It does create Approved Product or Supplier Lists 
(Whitelists) of products or organizations that have been assessed for 
use in certain applications. There are currently no Huawei or ZTE 
products on the DOD Unified Capabilities Approved Products List (APL). 
The fact that a product does not appear on an APL does not mean 
contractors cannot offer bids or that the government can still select 
outside the APL. Short of suspension and debarment, federal contractors 
and vendors are not precluded from competing on DOD contracts. It is 
the policy of the DOD to solicit from a broad number of potential 
offerors and award contracts based on full and open competition to the 
maximum extent possible.
    ZTE Corporation is a unique case because the Department of Commerce 
added it to the Entity List, which is a list of foreign entities that 
are subject to specific license requirements for the export, reexport, 
or transfer of items subject to the Export Administration Regulations.
    Mr. Rogers. If a U.S. cleared defense contractor came to you and 
stated that they were planning to buy IT equipment or network 
management services from Huawei or ZTE, what would you advise them? 
What are the risks of using such equipment or network management 
services?
    Mr. Atkin. In addition to advising the cleared defense contractor 
that they should conduct commercial due diligence of the provider of 
equipment or services, we would recommend they practice supply chain 
risk management best practices such as those in the National Institute 
of Science and Technology Special Publication 800-161, ``Supply Chain 
Risk Management Practices for Federal Information Systems and 
Organizations.'' If the equipment or services were for use on or 
related to a national security system, DOD would also reference the 
policies and procedures in Committee on National Security Systems 
Directive 505, ``Supply Chain Risk Management,'' and DOD Instruction 
5200.44, ``Protection of Mission Critical Functions to Achieve Trusted 
Systems and Networks (TSN).''
    Only in limited circumstances would the Department have insight 
into or the contractual right to control a cleared defense contractor's 
decision to use any particular subcontractor or supplier. Absent 
suspension or debarment or a statutory restriction on contracting with 
a prohibited source, our cleared defense contractors would generally 
not be precluded from using a specific vendor's equipment or services.
    However, it is important to note that the Department has several 
mechanisms in place to help ensure the security of products or services 
delivered to us and the systems that cleared defense contractors use to 
store or process sensitive DOD information.
    First, the Department requires Program Protection Plans (PPPs) to 
address the full spectrum of security risks for the critical components 
contained in our weapons systems, including supply chain 
vulnerabilities, and to implement mitigations to manage risk to system 
functionality. In addition to the security requirements applied to 
deliverable products or services, the Federal Acquisition Regulation 
(FAR) requires that contractor information systems used to store or 
process classified information are compliant with the National 
Industrial Security Program Operating Manual (NISPOM). The Defense FAR 
Supplement (DFARS) also requires that contractor unclassified systems 
that will store or process sensitive DOD information must also provide 
appropriate security for that information.
    It is important to note that there are additional statutory 
authorities available to the Department to limit or exclude vendors in 
specific circumstances. For example, section 1211 of the National 
Defense Authorization Act (NDAA) for Fiscal Year (FY) 2006, as amended 
by section 1243 of the NDAA for FY 2012, and as implemented at DFARS 
Section 225.77, prohibits the Secretary of Defense from acquiring 
supplies or services that are on the United States Munitions List 
through a contract, or subcontract at any tier, from any Communist 
Chinese military company. In addition, section 806 of the NDAA for FY 
2011, as amended by section 806 of the NDAA for FY 2013, has been 
implemented at DFARS Subpart 239.73, ``Requirements for Information 
Relating to Supply Chain Risk.'' This clause enables DOD components to 
exclude a source that fails to meet established qualifications 
standards or fails to receive an acceptable rating for an evaluation 
factor regarding supply chain risk for information technology 
acquisitions, and to withhold consent for a contractor to subcontract 
with a particular source or to direct a contractor to exclude a 
particular source.
    ZTE Corporation is a unique case because the Department of Commerce 
added it to the Entity List, which is a list of foreign entities that 
are subject to specific license requirements for the export, reexport, 
or transfer of items subject to the Export Administration Regulations.
    Mr. Rogers. What if that same cleared defense contractor told you 
that because of their relationship with Huawei, they were being asked 
or were required to submit information related to their network 
security? What would you suggest they do? What are the risks of 
providing information about their network security to a firm like 
Huawei?
    Mr. Atkin. DOD would advise the cleared defense contractor that 
they should conduct commercial due diligence of the provider of 
equipment or services they partner with. For the specific example of 
providing network security information to a company in which they 
outsource services, DOD would additionally advise the cleared defense 
contractor to conduct a risk analysis based on the type of information, 
what type of access to the information is provided (can information be 
modified), contractual provisions on how the information will be used 
or shared, and information protections, among other factors.
    Mr. Rogers. Do you recommend the Department of Defense rely on 
equipment provided by Huawei or ZTE, which are linked to the Chinese 
military and intelligence apparatus and have been linked to sales to 
the Islamic Republic of Iran, in violation of U.S. sanctions laws?
    General McLaughlin. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. If a U.S. cleared defense contractor came to you and 
stated that they were planning to buy IT equipment or network 
management services from Huawei or ZTE, what would you advise them? 
What are the risks of using such equipment or network management 
services?
    General McLaughlin. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. What if that same cleared defense contractor told you 
that because of their relationship with Huawei, they were being asked 
or were required to submit information related to their network 
security? What would you suggest they do? What are the risks of 
providing information about their network security to a firm like 
Huawei?
    General McLaughlin. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. Do you recommend the Department of Defense rely on 
equipment provided by Huawei or ZTE, which are linked to the Chinese 
military and intelligence apparatus and have been linked to sales to 
the Islamic Republic of Iran, in violation of U.S. sanctions laws?
    General Moore. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. If a U.S. cleared defense contractor came to you and 
stated that they were planning to buy IT equipment or network 
management services from Huawei or ZTE, what would you advise them? 
What are the risks of using such equipment or network management 
services?
    General Moore. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. What if that same cleared defense contractor told you 
that because of their relationship with Huawei, they were being asked 
or were required to submit information related to their network 
security? What would you suggest they do? What are the risks of 
providing information about their network security to a firm like 
Huawei?
    General Moore. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Regarding Sec. 1107 of FY16 NDAA, the authority to 
create a Title 10 Civilian Cyber Excepted Service Workforce: Since 
cyberspace is a warfighting domain, are these civilian personnel lawful 
combatants? Should they be? If they are, are we willing to accept that 
in a multi-domain military conflict that they could be targeted by our 
adversaries no differently than our uniformed personnel?
    Mr. Atkin. The great majority of the activities envisioned for our 
DOD civilian cyber workforce are support activities, such as, by way of 
example, developing information technology strategy and designing 
computer systems required to support an enterprise's objectives and 
goals, conducting routine network maintenance and security functions, 
developing offensive and defensive tools and capabilities, and 
providing technical advice or services to members of the armed forces 
and to departmental chief information officers. Notably, the great 
majority of the activities envisioned for our DOD civilian workforce 
are conducted during peacetime, when their role in hostilities is not 
in question.
    During armed conflict, under the law of war, persons who are not 
members of the U.S. armed forces, but are authorized to accompany them, 
fall into a special category. Although they are often referred to as 
``civilians'' because they are not military personnel, they differ 
materially from the civilian population because these persons are 
sometimes also authorized--and in some cases, are ordered--to accompany 
U.S. armed forces into a theater of operations to support the force. 
Persons authorized to accompany the U.S. armed forces may not be made 
the object of attack unless they take direct part in hostilities. They 
may, however, be detained by enemy military forces, and are entitled to 
POW status if they fall into the power of the enemy during 
international armed conflict. They also have legal immunity from the 
enemy's domestic law for providing authorized support services to the 
armed forces.
    However, during armed conflict, some civilians who support the U.S. 
armed forces may sit at the keyboard and participate, under the 
direction of a military commander, in cyberspace operations. The law of 
war does not prohibit civilians from directly participating in 
hostilities, such as offensive or defensive cyberspace operations, even 
when that activity would be a use of force or would involve direct 
participation in hostilities; however, in such cases, a civilian is not 
a ``lawful combatant'' and does not enjoy the right of combatant 
immunity, is subject to direct attack for such time as he or she 
directly participates in hostilities, and if captured by enemy 
government forces may be prosecuted for acts prohibited under the 
captor's domestic law.
    Most, if not the great majority, of our civilian cyber workforce 
involved in providing support to cyberspace operations during armed 
conflict will not be serving on the battlefield where they may be the 
object of attack or risk being detained by the enemy. Instead, most 
will be providing their support remotely from areas outside the area of 
hostilities, are not easily identifiable as an individual, and are 
likely serving in the United States. DOD practice has been to permit a 
broad range of civilians to be authorized to accompany U.S. armed 
forces, such as, by way of example, DOD employees, employees of other 
government agencies sent to support the U.S. armed forces, and other 
authorized persons working on government contracts to support the U.S. 
armed forces. The DOD civilian cyber workforce is another category of 
DOD employees who may support the armed forces on the battlefield and 
elsewhere. DOD expects its commanders to exercise care in placing any 
civilian accompanying U.S. armed forces in situations in which an 
attacking enemy may consider their activities to constitute taking a 
direct part in hostilities. It would be an exceptional situation where 
any member of the DOD civilian cyber work force would be subject to any 
greater risk than other civilians accompanying the armed forces.
    Mr. Lamborn. Regarding Sec. 1107 of FY16 NDAA, the authority to 
create a Title 10 Civilian Cyber Excepted Service Workforce: 
Acknowledging that civilians are vital to our cyberspace activities, 
were the Sec. 1107 authorities sufficient, or are others needed?
    Mr. Atkin. The Section 1107 authorities provide the Department with 
new capabilities to improve recruiting and retention of cyber personnel 
that DOD is in the very initial stages of implementing. In our view, 
there is a potential issue with the scope of the authority. It appears 
somewhat limited, depending on its interpretation. A broader and more 
clearly defined scope that includes positions held by elements of the 
Department of Defense supporting the Department's cyberspace mission 
would be helpful as well as authorities that provide enhanced 
recruiting, training, professional development, and retention 
capabilities to the Secretary of Defense through a centralized Cyber 
Workforce Development Fund. The authorities in title 10 provided to the 
Secretary for a similar fund, the Department of Defense Acquisition 
Workforce Development Fund, dedicated to the development and 
sustainment of the defense acquisition workforce and managed by the 
Under Secretary of Defense for Acquisition, Technology and Logistics, 
provide a useful model.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. O'ROURKE
    Mr. O'Rourke. 1) How large is the CYBERCOM workforce? Please break 
down by civilian, Active Duty, and contractor.
    2) How is DOD competing with the private sector to get high-quality 
talent to fill cyber security positions? Do you anticipate DOD becoming 
more dependent on the contracted workforce for this purpose? How do our 
potential adversaries deal with this problem?
    Mr. Atkin. NDAA FY16, Sec 1107 will improve DOD's competitive 
posture for cyber talent. The Department will use this new authority to 
address hiring challenges by establishing a new DOD Cyber Excepted 
Service. Using a phased approach, the Department will implement the new 
personnel system for United States Cyber Command and supporting 
organizations to recruit and retain highly skilled cyber personnel. It 
is too soon to tell whether the Department will become more dependent 
on the contracted workforce at this time.
    Mr. O'Rourke. 1) How large is the CYBERCOM workforce? Please break 
down by civilian, Active Duty, and contractor.
    2) How is DOD competing with the private sector to get high-quality 
talent to fill cyber security positions? Do you anticipate DOD becoming 
more dependent on the contracted workforce for this purpose? How do our 
potential adversaries deal with this problem?
    General McLaughlin. [The information referred to is for official 
use only and retained in the committee files.]
    Mr. O'Rourke. 1) How large is the CYBERCOM workforce? Please break 
down by civilian, Active Duty, and contractor.
    2) How is DOD competing with the private sector to get high-quality 
talent to fill cyber security positions? Do you anticipate DOD becoming 
more dependent on the contracted workforce for this purpose? How do our 
potential adversaries deal with this problem?
    General Moore. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. AGUILAR
    Mr. Aguilar. In the testimony presented, you mentioned the 
``Cybersecurity National Action Plan'' released by the President. One 
of the proposals mentioned in the plan was ``enhancing student loan 
forgiveness programs for Cybersecurity experts joining the Federal 
workforce.'' You mention the ``need to keep our best employees,'' in 
your testimony. From what you have seen, do you believe enhanced 
student loan forgiveness would assist us in retaining the best 
personnel? Why? Also, do you know of any current efforts to implement 
any enhanced loan forgiveness programs within the DOD?
    Mr. Atkin. Given the significant rise in the cost of higher 
education, as well as the number of students who graduate with a 
student loan burden, this could be an attractive recruiting tool to get 
young, highly talented cybersecurity personnel into the Federal 
Government and develop them as long term employees. Its usefulness as a 
retention tool for individuals already in federal service is unknown, 
without knowing the details of the program. An enhanced loan 
forgiveness program within DOD would likely require a legislative 
proposal.
    Mr. Aguilar. In our efforts to identify, recruit, and retain 
qualified cyber operations personnel, what would you all say, each of 
you, are the three biggest obstacles?
    Mr. Atkin. The three biggest obstacles are: 1) Cyber operations is 
a high demand skill area across the federal government, private sector, 
etc., creating significant competition across all sectors for 
experienced personnel. 2) DOD does not provide competitive salaries, 
although the new Section 1107 authorities will help in that regard. 3) 
The lack of a Cyber Workforce Development Fund that mirrors the Defense 
Acquisition Workforce Development Fund (CWDF). The CWDF would strongly 
support the Department's efforts to recruit, train and develop a system 
to carefully manage our civilian cyber workforce.
    Mr. Aguilar. You mention in your testimony that ``one of the 
Department's key policy goals in cyberspace is to deter cyberattacks.'' 
And while I agree that such a goal is a worthy endeavor, one of the 
attributes of other weapons is that they have a clearly defined ``home 
address.'' We can tell where a missile is shot from. Cyberattacks, 
however, are far more ambiguous and real questions exist about the 
ability to accurately trace the source of an attack. I understand the 
limits of what can be discussed in such an open forum, but could you 
all speak a little to the steps we are taking to improve our ability to 
correctly attribute attacks to actors?
    Mr. Atkin. Attribution is a fundamental part of an effective cyber 
deterrence strategy, as anonymity enables malicious cyber activity by 
state and non-state groups. Intelligence and attribution capabilities 
help unmask an actor's cyber persona, identify the attack's point of 
origin, and determine tactics, techniques, and procedures. Public or 
private attribution can play a significant role in dissuading cyber 
actors from conducting attacks in the first place. Attribution also 
enables the Defense Department or other agencies to conduct response 
and denial operations against an incoming cyberattack, and ensure that 
any response targets the responsible actor and is discriminate and 
proportional and in accordance with international and domestic law--
just as we do in any domain.
    This is why DOD and the intelligence community have invested 
significantly in all source collection, analysis, and dissemination 
capabilities, all of which reduce the anonymity of state and non-state 
actor activity in cyberspace. DOD is also collaborating with the 
private sector and other agencies of the U.S. government to strengthen 
attribution capabilities.
    Mr. Aguilar. In the testimony presented, you mentioned the 
``Cybersecurity National Action Plan'' released by the President. One 
of the proposals mentioned in the plan was ``enhancing student loan 
forgiveness programs for Cybersecurity experts joining the Federal 
workforce.'' You mention the ``need to keep our best employees,'' in 
your testimony. From what you have seen, do you believe enhanced 
student loan forgiveness would assist us in retaining the best 
personnel? Why? Also, do you know of any current efforts to implement 
any enhanced loan forgiveness programs within the DOD?
    General McLaughlin. The fight for cyber talent requires a full 
arsenal of hiring flexibilities. Benefits like loan forgiveness give 
hiring managers and additional tool to entice potential new hires. 
Beyond the Secretary of Defense's direction to delegate approval 
authority for hiring flexibilities (such as loan forgiveness) to the 
service cyber component commanders, I am unaware of any additional 
effort to expand loan forgiveness throughout the department.
    Mr. Aguilar. In our efforts to identify, recruit, and retain 
qualified cyber operations personnel, what would you all say, each of 
you, are the three biggest obstacles?
    General McLaughlin. We believe competition, lack of 
professionalization (not to be confused with professionalism) and 
operations tempo are the biggest obstacles to identifying, recruiting 
and retaining qualified cyber operations personnel.
    Competition:
    Highly qualified cyber professionals continue to be in high demand, 
but low quantity. Many candidates simple don't have the patience to 
wait on the lengthy federal hiring process, which includes gaining 
security clearances; nor do they have the desire to accept lower wages 
set by federal compensation rules. New personnel often wait many months 
prior to starting, even after completing training and reporting to 
their duty stations. Many of the young qualified people we are 
recruiting are also being targeted by colleges and private industry 
that provide many other competitive opportunities, often paying more 
money. Additionally, once many of our military have served their 
initial term, they have received high-quality training that makes them 
desirable to the private sector, causing many of them to consider 
leaving the services.
    Professionalization:
    A ``cyber warrior'' can be molded from a host of different career 
fields. From on-net operators, to linguists and operational planners, 
cyber professional' career paths are intermingled with other 
professional specialties. Unlike the intelligence or special operations 
community, cyber does not have a well-worn path to career advancement. 
As such, many in our community feel isolated and have difficulty seeing 
advancement within what could be a lifelong profession.
    Operations Tempo:
    The cyber domain is growing exponentially, and it has quickly out-
paced the department's ability to match manpower to mission. The 
workforce at every echelon, across occupational specialties, is tasked 
to [the] hilt, and task saturation is compounding the issue of 
retention.
    Mr. Aguilar. You mention in your testimony that ``one of the 
Department's key policy goals in cyberspace is to deter cyberattacks.'' 
And while I agree that such a goal is a worthy endeavor, one of the 
attributes of other weapons is that they have a clearly defined ``home 
address.'' We can tell where a missile is shot from. Cyberattacks 
however, are far more ambiguous and real questions exist about the 
ability to accurately trace the source of an attack. I understand the 
limits of what can be discussed in such an open forum, but could you 
all speak a little to the steps we are taking to improve our ability to 
correctly attribute attacks to actors?
    General McLaughlin. Attribution is a fundamental part of an 
effective cyber deterrence strategy, as anonymity enables malicious 
cyber activity by state and non-state groups. Intelligence and 
attribution capabilities help unmask an actor's cyber persona, identify 
the attack's point of origin, and determine tactics, techniques, and 
procedures. Public or private attribution can play a significant role 
in dissuading cyber actors from conducting attacks in the first place. 
Attribution also enables the Defense Department or other agencies to 
conduct response and denial operations against an incoming cyberattack, 
and ensure that any response targets the responsible actor and is 
discriminate and proportional and in accordance with international and 
domestic law--just as we do in any domain.
    This is why DOD and the intelligence community have invested 
significantly in all source collection, analysis, and dissemination 
capabilities, all of which reduce the anonymity of state and non-state 
actor activity in cyberspace. DOD is also collaborating with the 
private sector and other agencies of the U.S. government to strengthen 
attribution capabilities.
    Mr. Aguilar. In the testimony presented, you mentioned the 
``Cybersecurity National Action Plan'' released by the President. One 
of the proposals mentioned in the plan was ``enhancing student loan 
forgiveness programs for Cybersecurity experts joining the Federal 
workforce.'' You mention the ``need to keep our best employees,'' in 
your testimony. From what you have seen, do you believe enhanced 
student loan forgiveness would assist us in retaining the best 
personnel? Why? Also, do you know of any current efforts to implement 
any enhanced loan forgiveness programs within the DOD?
    General Moore. Given the significant rise in the cost of higher 
education, as well as the number of students who graduate with a 
student loan burden, this could be an attractive recruiting tool to get 
young, highly talented cybersecurity personnel into the Federal 
Government and develop them as long term employees. Its usefulness as a 
retention tool for individuals already in federal service is unknown, 
without knowing the details of the program. An enhanced loan 
forgiveness program within DOD would likely require a legislative 
proposal. There is no effort in progress of which we are aware.
    Mr. Aguilar. In our efforts to identify, recruit, and retain 
qualified cyber operations personnel, what would you all say, each of 
you, are the three biggest obstacles?
    General Moore. 1. Compensation disparity. DOD is hard pressed to 
compete with the private sector in terms of salaries for highly 
qualified cyber operations personnel. For both DOD civilians as well as 
military service members, private companies and corporations offer 
significantly higher salaries for the same level of expertise. This 
exacerbates the problem of recruiting and retaining individuals with 
these skills within the DOD.
    2. Also, compounding the problem further is the fact that the more 
training and experience the DOD provides to its employees, the more 
marketable they become and the greater the gap between their military 
or GS-civilian pay and the corresponding private sector pay.
    3. Supply vs. Demand. Within the United States there is currently a 
gap between the demand for qualified cyber operations and security 
personnel, and the supply of workers with these skills. The U.S. simply 
does not have enough graduates in STEM and Computer Science fields to 
meet the booming demand from both the public and private sectors. In 
competing for this scarce resource of human capital, the DOD is up 
against not only Silicon Valley companies such as Apple, Facebook, and 
Alphabet, but also large corporations across many other sectors of the 
economy, as well as other federal and state government agencies.
    Mr. Aguilar. You mention in your testimony that ``one of the 
Department's key policy goals in cyberspace is to deter cyberattacks.'' 
And while I agree that such a goal is a worthy endeavor, one of the 
attributes of other weapons is that they have a clearly defined ``home 
address.'' We can tell where a missile is shot from. Cyberattacks 
however, are far more ambiguous and real questions exist about the 
ability to accurately trace the source of an attack. I understand the 
limits of what can be discussed in such an open forum, but could you 
all speak a little to the steps we are taking to improve our ability to 
correctly attribute attacks to actors?
    General Moore. Attribution is a fundamental part of an effective 
cyber deterrence strategy, as anonymity enables malicious cyber 
activity by state and non-state groups. Intelligence and attribution 
capabilities help unmask an actor's cyber persona, identify the 
attack's point of origin, and determine tactics, techniques, and 
procedures. Public or private attribution can play a significant role 
in dissuading cyber actors from conducting attacks in the first place. 
Attribution also enables the Defense Department or other agencies to 
conduct response and denial operations against an incoming cyberattack, 
and ensure that any response targets the responsible actor and is 
discriminate and proportional and in accordance with international and 
domestic law--just as we do in any domain.
    This is why DOD and the intelligence community have invested 
significantly in all source collection, analysis, and dissemination 
capabilities, all of which reduce the anonymity of state and non-state 
actor activity in cyberspace. DOD is also collaborating with the 
private sector and other agencies of the U.S. government to strengthen 
attribution capabilities.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
